Capital Case
Execution Scheduled Sept. 24, 2020
Case No. _______________

In the Supreme Court of the United States
Christopher André Vialva,
Petitioner,
v.
United States of America,
Respondent.
______________________________
On Petition for a Writ of Certiorari to the
United States Court of Appeals for the Fifth Circuit
__________________________________________
APPENDIX TO PETITION FOR A WRIT OF CERTIORARI TO THE UNITED
STATES COURT OF APPEALS FOR THE FIFTH CIRCUIT
[Execution Scheduled for Sept. 24, 2020 at 6:00 p.m.]
SUSAN M. OTTO
Federal Public Defender
MICHAEL LIEBERMAN
Assistant Federal Public Defender
Office of the Federal Public Defender
Western District of Oklahoma
215 Dean A. McGee Ave., Suite 109
Oklahoma City, Oklahoma 73102
Telephone: (405) 609-5930
Susan_Otto@fd.org
Michael_Lieberman@fd.org

JARED TYLER *
Tyler Law Firm, PLLC
P. O. Box 230804
Houston, Texas 77223
Telephone: (832) 606-2302
jptyler@tylerlawfirm.org
* Counsel of Record

Counsel for Petitioner Christopher André Vialva

APPENDICES
Appendix 1

Opinion, United States Court of Appeals for the Fifth Circuit,
United States v. Vialva, --- F.3d ---, No. 20-70019 (Sept. 18, 2020)

Appendix 2

Order on Motion for Injunctive Relief, United States District
Court for the Western District of Texas, United States v. Vialva,
No. 99-cr-00070 (W.D. Tex. Sept. 11, 2020)

Appendix 3

Order, United States District Court for the Western District of
Texas, United States v. Vialva, No. 99-cr-00070 (W.D. Tex. Sept.
11, 2020)

Appendix 4

Judgment, United States District Court for the Western District
of Texas, United States v. Vialva, No. 99-cr-00070 (W.D. Tex. June
16, 2020)

Appendix 5

Letter from Federal Correctional Complex, Terre Haute, Warden
T.J. Watson to Christopher Vialva (July 31, 2020)

Appendix 6

Notice Regarding Execution Date, United States v. Vialva, No. 99cr-00070 (W.D. Tex. July 31, 2020)

Appendix 7

Survey of State Law Governing Setting of Execution Dates and
Warrant Requirements

ii

APPENDIX 1

United States Court of Appeals
for the Fifth Circuit

United States Court of Appeals
Fifth Circuit

FILED
September 18, 2020

No. 20-70019

Lyle W. Cayce
Clerk

United States of America,
Plaintiff—Appellee,
versus
Christopher Andre Vialva,
Defendant—Appellant.
Appeal from the United States District Court
for the Western District of Texas
USDC No. 6:04-CV-163, 6:99-CR-70-1
Before Higginbotham, Jones, and Dennis, Circuit Judges.
Per Curiam:
Defendant Christopher Vialva asks this court to stay his execution
pending consideration and disposition of appeal, and to vacate the district
court’s September 11, 2020 order confirming his September 24, 2020
execution date. 1 For the reasons set forth below, we affirm the district court
order and deny Vialva’s motion to stay in its entirety.

1

Vialva claims his execution was “set for the first time by the district court [on]
September 11, 2020.” In fact, the court explicitly disclaims this characterization in its
order, explaining that the order was being issued “out of an abundance of caution” in order

No. 20-70019

I. Background
Vialva was convicted under federal law of capital murder, sentenced
to death, and scheduled for execution on September 24, 2020. In its order
denying injunctive relief, the district court described Vialva’s conviction and
procedural history at length. Suffice it to say, Vialva has had the benefit of
lengthy procedural review since his conviction in 2000. Vialva’s conviction
was affirmed on direct appeal; 2 his 28 U.S.C. § 2255 challenge was denied; 3
and his effort to vacate denial of his § 2255 motion under Rule 60(b) of the
Federal Rules of Civil Procedure failed. 4
The Federal Bureau of Prisons (“BOP”) scheduled Vialva’s
execution for September 24, 2020 and informed Vialva on July 31, 2020.
Vialva subsequently filed a motion in the district court to enjoin his execution
on various grounds. On September 11, 2020, the district court denied
Vialva’s motion for injunctive relief. At the same time, the district court
issued another order clarifying that its judgment dated June 16, 2000 had
authorized the Department of Justice to determine the time, place, and
manner of Vialva’s execution and to carry out that execution. Out of an

to “confirm [the Department of Justice’s] authority to select Vialva’s execution date and
implement his sentence of death.” The district court considered its June 16, 2000 order
enough to authorize the Department of Justice to determine the time, place, and manner of
Vialva’s execution.
2

(2003).

United States v. Bernard, 299 F.3d 467 (5th Cir. 2002), cert. denied, 539 U.S. 928

3

The district court denied Vialva’s challenge under 28 U.S.C. § 2255 and his
request for a certificate of appealability (“COA”). This court subsequently denied a COA,
and the Supreme Court denied Vialva’s petition for certiorari. United States v. Bernard,
762 F.3d 467 (5th Cir. 2014), cert. denied, 136 S. Ct. 1155 (2016).
4

The district court dismissed the Rule 60(b) motion without prejudice, this court
denied a COA on the issue, and the Supreme Court denied certiorari. United States v.
Vialva, 904 F.3d 356 (5th Cir. 2018), cert. denied, 140 S. Ct. 860 (2020).

2

No. 20-70019

abundance of caution, the order lifted any hypothetical stay that may have
been in place, ordered a United States marshal to carry out the execution,
and determined that the sentence shall occur on a date designated by the
Director of the BOP, namely, September 24, 2020. Vialva appeals those
orders here.
II. Discussion
We review a district court’s decision to deny a stay of execution for
abuse of discretion. Diaz v. Stephens, 731 F.3d 370, 374 (5th Cir. 2013)
(citation omitted). When determining whether the district court abused its
discretion, we review questions of law de novo and factual findings for clear
error. State v. Ysleta Del Sur Pueblo, 955 F.3d 408, 413 (5th Cir. 2020). In
deciding whether to issue a stay of execution, a court must consider:
“(1) whether the stay applicant has made a strong showing that he is likely to
succeed on the merits; (2) whether the applicant will be irreparably injured
absent a stay; (3) whether issuance of the stay will substantially injure the
other parties interested in the proceeding; and (4) where the public interest
lies.” Id. at 379 (quoting Nken v. Holder. 556 U.S. 418, 434, 129 S. Ct. 1749,
1761 (2009)). Vialva fails to show that any of these factors favor granting a
stay of execution.
First, we conclude that Vialva is unlikely to succeed on the merits.
Vialva’s primary argument on appeal is that Texas state law should have been
followed with respect to the issuance of an execution warrant and the setting
of execution dates. See Tex. Code Crim. Proc. art. 43.15(a), 43.141. Despite
vigorously contesting the scope of the district court’s June 2000 judgment,
both parties recognize the authority of the district court to authorize and
schedule Vialva’s execution. Additionally, Vialva recognizes that, at the very
least, the district court did authorize his execution scheduled for
September 24, 2020 in its September 2020 order now under appeal. Vialva

3

No. 20-70019

emphasizes that the government did not follow its own procedures requiring
it to file a proposed judgment and order with the sentencing court. But now
that the district court has unambiguously directed a United States marshal to
carry out the execution and adopted the September 24, 2020 execution date,
these objections are beside the point. 5
Vialva also argues that Texas law prohibits a court from setting an
execution date earlier than the 91st day after the date the order setting the
execution was ordered. The district court certainly did not comply with this
requirement. Whether one counts from the date that the BOP scheduled
execution or from the district court’s September order, no one contests that
the scheduled execution date fails to meet the 91-day requirement. Thus, the
dispositive question is whether Texas state law applies to such pre-execution
procedures. We conclude that it does not apply to either date-setting or
warrant requirements.
Vialva asserts that Texas state law regarding date-setting and warrant
requirements applies to his execution based on 18 U.S.C. § 3596(a) of the
Federal Death Penalty Act (“FDPA”). Specifically, he argues that the
FDPA requires application of these Texas laws when it states that a United
States marshal “shall supervise implementation of the sentence in the

5

Vialva also argues that DOJ regulations do not vest BOP with broad authority and
discretion to set execution dates because (1) Congress has not delegated this power to the
Attorney General and (2) the regulations “are premised on and fully honor the judiciary’s
prerogative to fix the execution date and command it to occur.” In Vialva’s case, no doubt
exists at this stage as to whether the district court exercised its prerogative. Vialva does
not clearly state whether or how the September 2020 order failed to comply with the Texas
warrant requirements. As the government observes, strict compliance with Texas warrant
requirements may be impossible in this case. In any case, we find that Texas law does not
apply to either date-setting or warrant requirements.

4

No. 20-70019

manner prescribed by the law of the State in which the sentence is
imposed.” 6 18 U.S.C. § 3596(a).
We disagree. Instead, we conclude that § 3596(a) is at least limited to
procedures effectuating death and excludes pre-execution process
requirements such as date-setting and issuing warrants. The text of the
provision explicitly refers to the “implementation of the sentence” prior to
referencing state law. 18 U.S.C. § 3596(a). The text simply does not extend
to pre-execution date-setting and warrants. Our conclusion is consistent with
other circuits that have recently looked at this provision. See United States v.
Mitchell, No. 20-99009, 2020 WL 4815961, at *2 (9th Cir. 2020) (“In
addition, we hold that procedures that do not effectuate death fall outside the
scope of 18 U.S.C. § 3596(a).”); Peterson v. Barr, 965 F.3d 549, 554 (7th Cir.
2020) (concluding that § 3596(a) “cannot be reasonably read to incorporate
every aspect of the forum state's law regarding execution procedure” and
finding that state law governing execution witnesses falls outside the scope of
the FDPA). Vialva’s citation to In re Fed. Bureau of Prisons’ Execution Protocol
Cases is unavailing. 955 F.3d 106 (D.C. Cir. 2020). The debate among the
judges in that case related to procedures effectuating death and not preexecution procedures such as those at issue here. See Peterson, 965 F.3d at
554 (making the same distinction and finding that “the debate among the

6

The entire provision is as follows: “A person who has been sentenced to death
pursuant to this chapter shall be committed to the custody of the Attorney General until
exhaustion of the procedures for appeal of the judgment of conviction and for review of the
sentence. When the sentence is to be implemented, the Attorney General shall release the
person sentenced to death to the custody of a United States marshal, who shall supervise
implementation of the sentence in the manner prescribed by the law of the State in which
the sentence is imposed. If the law of the State does not provide for implementation of a
sentence of death, the court shall designate another State, the law of which does provide
for the implementation of a sentence of death, and the sentence shall be implemented in
the latter State in the manner prescribed by such law.” 18 U.S.C. § 3596(a).

5

No. 20-70019

D.C. Circuit judges was limited to state laws, regulations, and protocols
governing procedures for effectuating death” (emphasis in original)). Vialva
recognizes this limitation, emphasizing that cases interpreting whether
§ 3596(a) applies to technical and other in-chamber execution procedures
“provide little guidance in answering whether § 3596(a) requires application
of state law warrant and date-setting provisions.” The FDPA simply does
not reach warrant and date-setting provisions.
Having found that the FDPA does not require the application of state
law to pre-execution procedures, we find it unpersuasive that historical
practice requires the application of state law.

Vialva’s reliance on

correspondence from 1818 notwithstanding, he has not sufficiently
demonstrated that judicial practice requires courts to follow state law with
respect warrant and date-setting requirements.

Vialva concedes that

“federal practice may have evolved to leave to the courts the duty to fix the
date and issue an execution warrant,” but simply asserts that this did not
obviate the requirement to conform to state law. In any case, we do not
recognize the existence of any such “judicially created law.”
We also agree with the district court’s conclusion that Vialva has not
shown the remaining factors favor a stay of execution. Vialva has thoroughly
litigated his conviction and sentence. He was given official notice well in
advance of his execution date. Vialva is not challenging his death sentence,
but only the pre-execution procedures for carrying it out. Although the death
penalty itself is irreversible, there comes a time when the legal issues “have
been sufficiently litigated and re-litigated so that the law must be allowed to
run its course.” O’Bryan v. Estelle, 691 F.2d 706, 708 (5th Cir. 1982) (per
curiam) (quotation omitted).

Vialva has sufficiently litigated his case.

Furthermore, the public’s interest in timely enforcement of the death
sentence outweighs Vialva’s request for more time. Calderon v. Thompson,
523 U.S. 538, 556, 118 S. Ct. 1489, 1501 (1998) (stating that delay “inflict[s]

6

No. 20-70019

a profound injury to the ‘powerful and legitimate interest in punishing the
guilty,’ an interest shared by the State and the victims of crime alike”
(quoting Herrera v. Collins, 506 U.S. 390, 421, 113 S. Ct. 853, 871 (1993)
(O’Connor, J., concurring)).
A preliminary injunction is an extraordinary remedy never awarded as
a matter of right. Winter v. National Resource Defense Council, Inc., 555 U.S. 7,
24, 129 S. Ct. 365, 376 (2008) (citation omitted). This extraordinary remedy
is not justified here. We AFFIRM the district court order and DENY
Vialva’s motion to stay execution pending consideration and disposition of
appeal.

Certified as a true copy and issued
as the mandate on Sep 18, 2020
Attest:
Clerk, U.S. Court of Appeals, Fifth Circuit

7

APPENDIX 2

Case 6:99-cr-00070-ADA Document 690 Filed 09/11/20 Page 1 of 11

UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF TEXAS
WACO DIVISION

UNITED STATES OF AMERICA
v.
CHRISTOPHER ANDRE VIALVA

§
§
§
§
§

CRIMINAL NO. W-99-CR-070(1)-ADA
* CAPITAL CASE *

ORDER ON MOTION FOR INJUNCTIVE RELIEF
Defendant Christopher Vialva was convicted under federal law of capital murder and
sentenced to death. He is scheduled to be executed on September 24, 2020, at the Federal
Correctional Complex in Terre Haute, Indiana, where he currently resides. On August 14, 2020,
Vialva filed a motion to enjoin the Federal Bureau of Prisons (BOP) and the United States
Marshals Service (USMS) from executing him. ECF No. 675. Citing the Federal Death Penalty
Act (FDPA), 18 U.S.C. § 3596, as well as the express terms of this Court’s June 2000 judgment,
Vialva contends that these agencies lack the legal authority to carry out his execution. The
Government filed a response (ECF No. 680) disputing Vialva’s assertions, to which Vialva has
replied (ECF No. 683).
After carefully considering the pleadings and the governing legal authorities, the Court
concludes that Vialva’s motion does not meet the standards for injunctive relief. His motion
(ECF No. 675) is therefore denied for the reasons discussed below.
I. Background
In June 1999, Vialva led fellow gang members in the kidnapping, robbery, and ultimately
murder of two youth ministers, Todd Bagley and his wife Stacie, on their way home from what
would become their last Sunday morning worship service.

The Bagleys stopped at a

Case 6:99-cr-00070-ADA Document 690 Filed 09/11/20 Page 2 of 11

convenience store when the young men chose them as the victims of their robbery scheme born
the day before. After Vialva and his accomplices tricked the couple by asking for a ride to an
uncle’s house, Vialva pulled out a handgun and announced “the plans have changed.” The gang
stole their money, jewelry, and ATM cards, and then locked the Bagleys in the trunk of their own
car while the gang drove around for hours attempting to withdraw money from the Bagleys’
account and pawn Stacie’s wedding ring.
Vialva insisted on killing the Bagleys and burning their car to eliminate evidence of the
gang’s crimes. While they poured lighter fluid inside the car, the Bagleys sang and prayed in the
trunk. Stacie said, “Jesus loves you” and “Jesus, take care of us.” Vialva then donned a ski
mask, ordered the trunk open, and shot both Todd and Stacie in the head. Todd was instantly
killed, but Stacie survived the gunshot long enough to burn alive after one accomplice, Brandon
Bernard, set the car on fire.
In June 2000, Vialva and his co-defendant Brandon Bernard were jointly tried and
convicted by a unanimous jury in the Western District of Texas who heard all of the evidence
and decided their guilt for their part in the carjacking and murder of Todd and Stacie Bagley
while on federal government property. Both were sentenced to death. Their convictions were
affirmed on direct appeal and certiorari was denied by the United States Supreme Court. United
States v. Bernard, 299 F.3d 467 (5th Cir. 2002), cert. denied, 539 U.S. 928 (2003). Vialva and
Bernard then challenged their convictions and sentences by filing motions to vacate, set aside, or
correct under 28 U.S.C. § 2255 alleging a myriad of constitutional violations. After careful
consideration, the district court—the Honorable Judge Walter S. Smith, Jr. presiding1—denied
an evidentiary hearing, denied the § 2255 motions and the claims raised therein, and denied a

1

Judge Smith also presided over Bernard and Vialva’s original trial.

2

Case 6:99-cr-00070-ADA Document 690 Filed 09/11/20 Page 3 of 11

certificate of appealability (COA). ECF No. 449. On appeal, the Fifth Circuit also denied
Vialva and Bernard a COA and their petitions for certiorari review were again denied by the
Supreme Court in early 2016. United States v. Bernard, 762 F.3d 467 (5th Cir. 2014), cert.
denied, 136 S. Ct. 892 (2016).
Thereafter, Vialva and Bernard filed motions under Rule 60(b) of the Federal Rules of
Civil Procedure asking the district court to vacate its previous denial of their § 2255 motions.
ECF Nos. 553, 569.

In both motions, the defendants argued that Judge Smith’s alleged

“unfitness” to preside over the § 2255 proceedings amounted to a defect in the integrity of the
post-conviction review process sufficient to justify reopening the proceedings. The district
court—the Honorable Judge Lee Yeakel presiding—construed the Rule 60(b) motions as
successive petitions and dismissed them without prejudice for lack of jurisdiction. ECF No. 570.
The Fifth Circuit denied COA on the issue and the Supreme Court denied certiorari in January
2020. United States v. Vialva, 904 F.3d 356 (5th Cir. 2018), cert. denied, 140 S. Ct. 860 (2020).
On July 31, 2020, the BOP, upon the direction of the Attorney General, scheduled
Vialva’s execution for September 24, 2020. That same day, Vialva was informed of the setting
of his execution date, as was this Court. ECF Nos. 675-1, 673. Two weeks later, Vialva filed the
instant motion to enjoin the BOP and USMS from carrying out his execution. According to
Vialva, neither the June 2000 judgment (ECF No. 289), Department of Justice regulations, nor
any other federal law presently empowers the Attorney General, USMS, or BOP to unilaterally
set and carry out his execution.
Vialva provides four arguments to support this assertion: (1) this Court’s June 2000
judgment stayed Vialva’s execution “pending further order of this Court,” and no further order
has been issued; (2) the June 2000 judgment does not authorize the Attorney General or BOP to

3

Case 6:99-cr-00070-ADA Document 690 Filed 09/11/20 Page 4 of 11

determine the time, place, and manner of his execution; (3) federal law requires the issuance of
an execution warrant from the trial court before the USMS is authorized to supervise an
execution, and no such order has been issued by this Court; and (4) the BOP lacks authority
under federal law to execution him because they have not followed the procedures set forth by
Texas law governing the implementation of death sentences. Vialva asks this Court to enjoin the
BOP from executing him “until it has the legal authority to do so and in a manner that comports
with federal and Texas law.” ECF No. 675 at 11.
II. Analysis
To obtain a preliminary injunction, Vialva must establish: “(1) a substantial likelihood of
success on the merits, (2) a substantial threat of irreparable injury if the injunction is not issued,
(3) that the threatened injury if the injunction is denied outweighs any harm that will result if the
injunction is granted, and (4) that the grant of an injunction will not disserve the public interest.”
Jones v. Tex. Dep’t of Criminal Justice, 880 F.3d 756, 759 (5th Cir. 2018) (quoting Byrum v.
Landreth, 566 F.3d 442, 445 (5th Cir. 2009)); Ladd v. Livingston, 777 F.3d 286, 288 (5th Cir.
2015) (citing Trottie v. Livingston, 766 F.3d 450, 451 (5th Cir. 2014)).

This standard is

essentially the same as the framework for deciding whether to grant a stay of execution. See
Adams v. Thaler, 679 F.3d 312, 318 (5th Cir. 2012) (reiterating the four perquisites for obtaining
a stay of execution as set forth in Nken v. Holder, 556 U.S. 418, 434 (2009)).
Notably, the party seeking injunctive relief must prove each of the four elements before a
preliminary injunction can be granted. Mississippi Power & Light Co. v. United Gas Pipeline,
760 F.2d 618, 621 (5th Cir. 1985).

Because a preliminary injunction is considered an

“extraordinary and drastic remedy,” however, it is not granted routinely, “but only when the
movant, by a clear showing, carries the burden of persuasion.”

4

Holland Am. Ins. Co. v.

Case 6:99-cr-00070-ADA Document 690 Filed 09/11/20 Page 5 of 11

Succession of Roy, 777 F.2d 992, 997 (5th Cir. 1985). Even when a movant establishes each of
the four requirements, the decision whether to grant or deny a preliminary injunction is left to the
sound discretion of the district court, and the decision to grant a preliminary injunction is treated
as the exception rather than the rule. Mississippi Power & Light, 760 F.2d at 621.
As explained below, these factors do not support Vialva’s request for an injunction.
Vialva has failed to present a substantial case on the merits, and the interests of other parties,
including the public, weigh in favor of denying Vialva’s request to stay his execution.
A.

Vialva’s Arguments Lack Merit.
1.

The Court’s June 2000 Judgment

Vialva first contends that the explicit terms of the Court’s June 2000 judgment
demonstrate that the BOP lacks the legal authority to execute him. In relevant part, the June
2000 judgment reads:
[…] As to [the capital counts], the defendant is hereby committed to the
custody of the U.S. Bureau of Prisons until exhaustion of the procedures for
appeal of the judgment of conviction and review of the sentences. Upon
exhaustion of appeals, the sentence of DEATH will be implemented by the
defendant being released from the custody of the U.S. Bureau of Prisons to the
custody of the United States Marshals, who shall supervise the execution of the
defendant in the manner prescribed by the laws of Texas.
The time, place and manner of execution are to be determined by the
Attorney General, provided the time shall not be sooner than 61 days nor later
than 90 days after the date of this judgment. If an appeal is taken from this
conviction and sentence, execution of the sentence shall be stayed pending further
order of this Court upon receipt of the mandate of the Court of Appeals.
The defendant is hereby committed to the custody of the Bureau of Prisons
and shall be confined until the sentence of execution is carried out.
ECF No. 289 at 2.
Citing the second paragraph of the judgment, Vialva argues there is presently a stay of
execution in place because no further order ever issued from the district court. He also asserts

5

Case 6:99-cr-00070-ADA Document 690 Filed 09/11/20 Page 6 of 11

that the Attorney General completely lacks the authority to set an execution date now because
more than 90 days have passed since the judgment issued. The Court does not agree with either
of Vialva’s arguments. When read in context with the entire judgment, it is clear the second
paragraph was intended to limit only the Attorney General’s authority to set an execution date
before Vialva had a chance to exhaust his appeals.

There is no indication that a stay of

execution—or the limitations placed on the Attorney General’s authority to set an execution
date—was meant to apply after Vialva had exhausted his appeals. This is evidenced by the first
paragraph of the judgment indicating that the Government will implement Vialva’s sentence
upon the exhaustion of his appeals.
Nevertheless, the Court is aware that the June 2000 judgment may cause the discerning
reader some confusion. The remedy to this confusion, however, is not to enjoin the Government
from carrying out Vialva’s lawful sentence, but rather clarify what the Court believes was meant
all along—that there is no longer a stay in place and the Government has the authority to set and
carry out Vialva’s sentence of death. To that end, simultaneous with the filing of this Order, the
Court will issue a separate Order lifting any theoretical stay and confirming the Government’s
authority to schedule and carry out Vialva’s execution on September 24, 2020.
2.

Federal Law

Vialva next alleges that federal law requires the issuance of a warrant from this Court
before the USMS has authority to carry out his execution. Because no such warrant has been
issued, Vialva argues, no one in the Executive Branch, including the Attorney General and
USMS, has authority to implement his upcoming scheduled execution. He relies, in part, on a
Department of Justice (DOJ) regulation instructing government attorneys on the type of proposed
judgment and order they should file after a jury returns a verdict of death. See 28 C.F.R. § 26.2

6

Case 6:99-cr-00070-ADA Document 690 Filed 09/11/20 Page 7 of 11

(“Whenever this part becomes applicable, the attorney for the government shall promptly file
with the sentencing court a proposed Judgment and Order . . .”).
There are at least two problems with Vialva’s argument. First, there is nothing in the
Constitution stating that the power to implement a sentence—as opposed to the power to impose
a sentence—vests solely with the courts, and Vialva identifies no statute, case law, or regulation
consistent with this position. Although Vialva refers to 28 C.F.R. § 26.2, his reliance on a
regulation that governs only DOJ attorneys is misplaced. For one, the regulation does not
indicate that the issuance of a judicial warrant is a prerequisite for obtaining authorization to
implement a sentence.2 And while incorporating the content of 28 C.F.R. § 26.2 may seem like a
good idea, courts are not required to comply with the regulation in order to confer DOJ the
authority to implement a lawfully imposed death sentence.
This leads to Vialva’s second problem—he concedes that a district court can confer DOJ
this authority. The Court did just that in the June 2000 judgment when it sentenced Vialva to
death.

In that judgment, the Court specifically stated that Vialva’s sentence “will be

implemented by the defendant being released from the custody of the U.S. Bureau of Prisons to
the custody of the United States Marshals, who shall supervise the execution of the defendant in
the manner prescribed by the laws of Texas.” ECF No. 289 at 2. This is consistent with the
FDPA, which directs the USMS to “supervise the implementation of the sentence in the manner
prescribed by the law of the State in which the sentence is imposed.” Thus, the Court long ago
gave DOJ the authority to implement Vialva’s sentence.

2

The regulation states that the proposed Judgment and Order filed by the government shall state (1) the
sentence shall be executed by a United States Marshal designated by the Director of the United States Marshals
Service; (2) the sentence shall be executed by intravenous injection of a lethal substance or substances in a quantity
sufficient to cause death; (3) the sentence shall be executed on a date and at a place designated by the Director of
the Federal Bureau of Prisons; and (4) the prisoner under sentence of death shall be committed to the custody of the
Attorney General or his authorized representative for appropriate detention pending execution of the sentence. 28
C.F.R. § 26.2(a).

7

Case 6:99-cr-00070-ADA Document 690 Filed 09/11/20 Page 8 of 11

Regardless, assuming further judicial authorization is necessary, this Court’s new
Order—issued contemporaneously with this one—tracks the language of 28 C.F.R. § 26.2 and
confirms DOJ’s authority to implement Vialva’s sentence.

Injunctive relief is therefore

unnecessary.
3.

Texas Law

Lastly, Vialva contends he is entitled to an injunction because his sentence is not being
implemented “in the manner prescribed by the laws of Texas” as required by the FDPA and the
June 2000 judgment. Vialva focuses on three pre-execution procedures that are required under
Texas law but allegedly have not been followed in this case: (1) that a court must enter an order
setting the date of an execution in order to effectuate a death sentence; (2) that the execution date
must be set at least 91 days in advance; and (3) that a court issue an execution warrant directing
the relevant authority to carry out the execution, a copy of which must be served on counsel. See
Tex. Code Crim. Pro. art. 43.141(a)-(c). Because none of these requirements have occurred,
Vialva argues that carrying out his execution would be “blatantly illegal.” The Court disagrees.
While the specific issue raised by Vialva is admittedly novel, every court to deal with a
similar issue has come to the same conclusion—that the FDPA “cannot be reasonably read to
incorporate every aspect of the forum state’s law regarding execution procedure.” Peterson v.
Barr, 965 F.3d 549, 554 (7th Cir. 2020) (finding state law governing execution witnesses falls
outside the scope of the FDPA); United States v. Mitchell, No. 20-99009, 2020 WL 4815961, at
*2 (9th Cir. 2020) (finding procedures that do not effectuate death fall outside the scope of the
FDPA); In re Fed. Bureau of Prisons’ Execution Protocol Cases, 955 F.3d 106, 126 (D.C. Cir.
2020) (Protocol Cases) (same). Rather, federal law requires the Government to follow only

8

Case 6:99-cr-00070-ADA Document 690 Filed 09/11/20 Page 9 of 11

those state laws, regulations, and protocols that govern the procedure for “effectuating death.”
Mitchell, 2020 WL 4815961, at *2.
This Court agrees with the above Circuits and concludes that, even under a broad reading,
the FDPA incorporates only those state procedures “that effectuate [] death, including choice of
lethal substances, dosages, vein-access procedures, and medical-personnel requirements.”
Peterson, 965 F.3d at 554; Protocol Cases, 955 F.3d at 151 (Tatel, J., dissenting). The preexecution procedures of Texas mentioned by Vialva are not pertinent to effectuating death and
therefore do not fall under the scope of the FDPA. Consequently, Vialva fails to establish the
substantial likelihood of success on the merits necessary to warrant injunctive relief. Jones, 880
F.3d 756, 759.
B.

The Remaining Factors Weigh Against an Injunction.
A preliminary injunction is an extraordinary remedy never awarded as a matter of right.

Winter v. National Resource Defense Council, Inc., 555 U.S. 7, 24 (2008) (citing Munaf v.
Geren, 553 U.S. 674, 689–90 (2008)). In addition to evaluating a movant’s likelihood of success
on the merits, courts “must balance the competing claims of injury and must consider the effect
on each party of the granting or withholding of the requested relief.” Id. (citation omitted).
Courts should also “pay particular regard for the public consequences in employing the
extraordinary remedy of injunction.” Id. In this case, Vialva fails to show that the balance of
equities—i.e. the remaining three prerequisites for obtaining an injunction—weigh in his favor.
To start, Vialva has not identified what “irreparable injury” would occur if an injunction
is not issued. The gist of Vialva’s motion is that the Government set his execution date without
further order from this Court and without complying with Texas law. As explained at the zoom
hearing held September 3, 2020, that means Vialva was given notice of his execution date only

9

Case 6:99-cr-00070-ADA Document 690 Filed 09/11/20 Page 10 of 11

55 days in advance as opposed to at least 90 days that is required under Texas law, thus cutting
short his time to further challenge his conviction and sentence and request clemency. But while
the death penalty itself is irreversible and sometimes “weighs heavily in the movant’s favor,”
there must come a time when the legal issues “have been sufficiently litigated and re-litigated so
that the law must be allowed to run its course.” O’Bryan v. Estelle, 691 F.2d 706, 708 (5th Cir.
1982) (per curiam).
As discussed in more detail in the Background section, Vialva has thoroughly litigated
the legality of his conviction and sentence for almost two decades on direct appeal and in postconviction proceedings before this Court, the Fifth Circuit, and the Supreme Court. It is safe to
say the legal issues have been “sufficiently litigated.” And while the legal issues surrounding
Vialva’s execution date did not become ripe until the date was set, any argument that he has been
prevented from fully and fairly litigating these issues is belied by his numerous legal filings since
that time and a merits decision this week on his habeas corpus petition.3 Petitioner has also filed
a clemency petition and had a hearing regarding that petition scheduled for September 10, 2020.
Thus, this Court can find no cognizable harm that will result to Vialva if his request for an
injunction is denied.
Furthermore, the interests of the Government—and the public—in enforcing valid
criminal sentences outweigh Vialva’s request for more time. “[E]quity must be sensitive to the
[s]tate’s strong interest in enforcing its criminal judgments without undue interference from the
3

In addition to the exemplary briefing provided in the instant case, Vialva has also requested habeas corpus
relief from the Southern District of Indiana and challenged the constitutionality of the federal death penalty protocol
in the D.C. district court, the D.C. Circuit Court, and the Supreme Court. See Vialva v. Warden, et al., No. 20-CV00413 (S.D. Ind.), ECF No. 1 (Petition for Writ of Habeas Corpus Pursuant to 28 U.S.C. § 2241 filed Aug. 10,
2020); Vialva v. Barr, et al., No. 1:20-cv-01693-TSC (D.D.C.), consolidated with In Re Fed. Bureau of Prisons’
Execution Protocol Cases, No. 1:19-mc-00145-TSC (D.D.C.); In re Fed. Bureau of Prisons’ Execution Protocol
Cases, 955 F.3d 106 (D.C. Cir. 2020), cert. denied sub nom. Bourgeois v. Barr, No. 19-1348, 2020 WL 3492763
(U.S. June 29, 2020). The Southern District of Indiana has already ruled on the merits of Vialva’s relief request.
See Vialva v. Warden, No. 20-CV-00413 (S.D. Ind.), ECF No. 20 (Order Den. Petition for Writ of Habeas Corpus
(Sept. 8, 2020)).

10

Case 6:99-cr-00070-ADA Document 690 Filed 09/11/20 Page 11 of 11

federal courts.”

Crutsinger v. Davis, 930 F.3d 705, 709 (5th Cir. 2019) (citing Hill v.

McDonough, 547 U.S. 573, 584 (2006)). The Supreme Court has frequently explained that “both
the [Government] and the victims of crime have an important interest in the timely enforcement
of a [death] sentence.” Bucklew v. Precythe, 139 S. Ct. 1112, 1133 (2019); Hill, 547 U.S. at 584.
Granting Vialva an injunction would clearly inhibit the Government’s vested interest in
carrying out an otherwise valid sentence and would impair the finality of this Court’s criminal
judgment. When “lengthy federal proceedings have run their course”—as they have in this
case—“finality acquires an added moral dimension.” Protocol Cases, 955 F.3d at 126 (citing
Calderon v. Thompson, 523 U.S. 538, 556 (1998)). Vialva committed the horrendous murders of
Stacie and Todd Bagley over 21 years ago and has received the full panoply of procedural
protections afforded under the Constitution and the FDPA. No further delay is warranted.
In short, Vialva fails to demonstrate “that the balance of equities tips in his favor, [or]
that an injunction is in the public interest.” Winter, 555 U.S. at 20; Jones, 880 F.3d at 759. The
relief requested in his motion to enjoin his execution will therefore be denied.
III. Conclusion
Vialva has failed to demonstrate a likelihood of success on the merits or that the balance
of equities weighs in his favor. Accordingly, for the foregoing reasons, Vialva’s Motion for
Injunction, filed August 14, 2020 (ECF No. 675), is DENIED.
It is so ORDERED.
SIGNED this 11th day of September, 2020.

ALAN D ALBRIGHT
UNITED STATES DISTRICT JUDGE
11

APPENDIX 3

Case 6:99-cr-00070-ADA Document 691 Filed 09/11/20 Page 1 of 2

UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF TEXAS
WACO DIVISION

UNITED STATES OF AMERICA
v.
CHRISTOPHER ANDRE VIALVA

§
§
§
§
§

CRIMINAL NO. W-99-CR-070(1)-ADA
* CAPITAL CASE *

ORDER
In June 2000, Defendant Christopher Vialva was convicted under federal law of capital
murder and sentenced to death. The district court’s Judgment dated June 16, 2000 (ECF No.
289) authorized the Department of Justice (DOJ)—including the Attorney General, the Federal
Bureau of Prisons and the United States Marshals Service—to determine the time, place, and
manner of Vialva’s execution and to carry out that execution. As explained in the other Order
filed today, this Court does not believe another order is required to empower DOJ with this
authority, nor does the Court believe that a stay is presently in effect as a result of the original
Judgment. Nevertheless, out of an abundance of caution, the Court issues this Order to lift any
theoretical stay and confirm DOJ’s authority to select Vialva’s execution date and implement his
sentence of death.
Accordingly, to the extent there is presently a stay of execution in place, this Court
hereby ORDERS that the stay and abeyance is LIFTED.
Furthermore, in accordance with 28 C.F.R. § 26.2, the Court ORDERS:
(1)

The sentence of death, set forth in the Court’s June 2000 Judgment (ECF No.

289), shall be executed by a United States Marshal designated by the Director of the United
States Marshals Service;

1

Case 6:99-cr-00070-ADA Document 691 Filed 09/11/20 Page 2 of 2

(2)

The sentence shall be executed by intravenous injection of a lethal substance or

substances in a quantity sufficient to cause death;
(3)

The sentence shall be executed on a date and at a place designated by the Director

of the Federal Bureau of Prisons, namely, September 24, 2020, at the Federal Correctional
Complex, Terre Haute, Indiana, or such other time and place as he may later designate; and
(4)

The prisoner under sentence of death shall be committed to the custody of the

Attorney General or his authorized representative for appropriate detention pending execution of
the sentence.
Finally, nothing in this Order shall be deemed to prevent a court of competent jurisdiction
from issuing a stay or injunction of the execution if that court deems such a stay to be necessary
and appropriate. Nor does this Order prevent the President of the United States from granting
clemency to the defendant.
It is so ORDERED.
SIGNED this 11th day of September, 2020.

ALAN D ALBRIGHT
UNITED STATES DISTRICT JUDGE

2

APPENDIX 4

Case 6:99-cr-00070-LY Document 289 Filed 06/16/00 Page 1 of 3

AS'(R.

1O/93)(W.D.Tx.

Rev.2.0)She9udgmtin R Criminal Case

FILED

UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF TEXAS

WACO

JUN 1 6 2000

DIVISION

-

CLERK, U.S. DISTRICT COURT
WESTERN DISJcF-OF TEXAS
BY
PUTY CLERK

UNITED STATES OF AMERICA,
Plaintiff,

Case Number W-99-CR-070(1)
USAO Number 1 999R04888

V.

CHRISTOPHER ANDRE VIALVA,
Defendant.

JUDGMENT IN A CRIMINAL CASE
(For Offenses Committed On or After November 1, 1987)

The defendant, CHRISTOPHER ANDRE VIALVA, was represented by Stanley L. Schwieger and B. Dwight Goains.

The defendant was found guilty on Counts SS1, SS2, SS3, and SS4 by a jury verdict on June 13, 2000, after a plea of not
guilty. Accordingly, the defendant is adjudged guilty of such Counts, involving the following offenses:

Date of Offense

Count
Number(s)

Carjacking

06/21/99

SS1

18 USC 1117
{18 USC 1111(a)(b)}

Conspiracy to Commit Murder

06/20/99

SS2

18 USC 111 1(a)(b)
18 Usc 2

First Degree Murder on a Government Reservation
Aiding and Abetting

06/21/99

SS3

18 USC 1111 (a)(b)
18 usc 2

First Degree Murder on a Government Reservation
Aiding and Abetting

06/21/99

SS4

Title & Section

Nature of Offense

18 USC 2119 & 2

As pronounced on June 13, 2000, the defendant is sentenced as provided in pages 2 through 3 of this Judgment. The
sentence is imposed pursuant to the Sentencing Reform Act of 1984.
It is ordered that the defendant shall pay to the United States a special assessment of $400.00, which shall be due
immediately. Said special assessment shall be made to the Clerk, U.S. District Court; P.O. Box 608; Waco, TX 76703-0608.
It is further ordered that the defendant shall notify the United States Attorney for this district within 30 days of any change
of name, residence, or mailing address until all fines, restitution, costs, and special assessments imposed by this Judgment are fully

paid.
Signed this the

iii

day of June, 2000.

WALTER S. SMITH, JR.
UNITED STATES DISTRICT JUDG

Defendant's SSN: 391-86-8225
Defendant's Date of Birth: 05/10/80
Defendant's address: 2808 Kim Drive; Killeen, TX 76543

-y

18-70007.854

Case 6:99-cr-00070-LY Document 289 Filed 06/16/00 Page 2 of 3
A0245 S(R'.

1O/93)(W.D.Tx. Rev.

JudgmentPage 2 of 3
Defendant CHRISTOPHER ANDRE VIALVA
Case Number: W-99-CR-070(1)
IMPRISONMENT
As to Count SS2, the defendant is sentenced to LIFE without the possibility of release. As to Counts SS1, SS3,
and SS4, the defendant is hereby committed to the custody of the U.S. Bureau of Prisons until exhaustion of the
procedures for appeal of the judgment of conviction and review of the sentences. Upon exhaustion of appeals, the
sentence of DEATH will be implemented by the defendant being released from the custody of the U .S. Bureau of Prisons
to the custody of the United States Marshals, who shall supervise the execution of the defendant in the manner
prescribed by the laws of Texas.

The time, place and manner of execution are to be determined by the Attorney General, provided the time shall
not be sooner than 61 days nor later than 90 days after the date of this judgment. If an appeal is taken from this
conviction and sentence, execution of the sentence shall be stayed pending futher order of this Court upon receipt of
the mandate of the Court of Appeals.

The defendant is hereby committed to the custody of the Bureau of Prisons and shall be confined until the
sentence of execution is carried out.

RETURN
I

have executed this Judgment as follows:

Defendant delivered on
at

to

with a certified copy of this Judgment.

United States Marshal
By

Deputy Marshal

1.

18-70007.855

p

Case 6:99-cr-00070-LY Document 289 Filed 06/16/00 Page 3 of 3
AO'245 S'(Rv. 10/93)(W.D.Tx. Rev. 2.0) SheWStatement of Reasons

Judgment--Page 3 of 3
Defendant: CHRISTOPHER ANDRE VIALVA
Case Number: W-99-CR-070(1)

STATEMENT OF REASONS
The presentence investigation report is waived as to Count SS2. The Court finds that there is information in
the record sufficient to enable the meaningful exercise of sentencing authority pursuant to 18 U.S.C. 3553.

Guideline Range Determined by the Court:
Total Offense Level:
Imprisonment Range:

43
LIFE

The Government has waived any claim that the defendant be assessed a fine and that the defendant be ordered
to pay restitution to the victims.

4
I

18-70007.856

p

APPENDIX 5

APPENDIX 6

Case 6:99-cr-00070-ADA Document 673 Filed 07/31/20 Page 1 of 2

IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF TEXAS
UNITED STATES OF AMERICA,
v.
CHRISTOPHER ANDRE VIALVA.

)
)
)
)
)
)
)

Case No. W-99-CR-070 (1)
(Capital Case)

GOVERNMENT’S NOTICE REGARDING EXECUTION DATE
The United States hereby notifies the Court that the Director of the
Federal Bureau of Prisons, upon the direction of the Attorney General, has
scheduled the execution of Christopher Andre Vialva, in accordance with 28
C.F.R. Part 26, to take place on September 24, 2020.
Respectfully submitted,
JOHN F. BASH
United States Attorney
By:

Dated: July 31, 2020

/s/Mark L. Frazier
MARK L. FRAZIER
Assistant United States Attorney

Case 6:99-cr-00070-ADA Document 673 Filed 07/31/20 Page 2 of 2

CERTIFICATE OF SERVICE
I hereby certify that I electronically filed the foregoing with the Clerk of
the Court for the United States District Court for the Western District of Texas
using the CM/ECF system on July 31, 2020. I certify that all participants in the
case are registered CM/ECF users and that service will be accomplished by the
CM/ECF system.
/s/Mark L. Frazier
MARK L. FRAZIER
Assistant United States Attorney

APPENDIX 7

Survey of State Law Governing Setting of Execution Dates and
Warrant Requirements
ALABAMA
Laws Regarding Initial Date Setting and Issuance of Execution Warrants
ALA. R. APP. PROC. 8(d)(1) (2020)
When pronouncing a sentence of death, the trial court shall not set an execution date,
but it may make such orders concerning the transfer of the inmate to the prison
system as are necessary and proper. The supreme court shall at the appropriate time
enter an order fixing a date of execution, not less than 30 days from the date of the
order, and it may make other appropriate orders upon disposition of the appeal or
other review. The supreme court order fixing the execution date shall constitute the
execution warrant.
ALA. CODE § 15-18-82 (2020)
(a) Where the sentence of death is pronounced against a convict, the sentence shall
be executed at any hour on the day set for the execution, not less than 30 nor more
than 100 days from the date of sentence, as the court may adjudge . . .
ALA. CODE § 15-18-80 (2020)
(a) Whenever any person is sentenced to death, the clerk of the court in which the
sentence is pronounced shall, within 10 days after sentence has been pronounced,
issue a warrant under the seal of the court for the execution of the sentence of death,
which warrant shall recite the fact of conviction, setting forth specifically the
offense, the judgment of the court and the time fixed for his execution, and which
shall be directed to the warden of the William C. Holman unit of the prison system
at Atmore, commanding him to proceed, at the time and place named in the sentence,
to carry the same into execution, as provided in Section 15-18-82, and the clerk shall
deliver such warrant to the sheriff of the county in which such judgment of
conviction was had, to be by him delivered to the said warden, together with the
condemned person as provided in subsection (b) of this section; provided, however,
that in case of appeal to the Supreme Court of Alabama by the defendant and the
suspension of execution of sentence by the trial court, said condemned person shall
remain in the county jail of the county in which the conviction was had unless the

court in which the case is tried orders otherwise, in which case, upon the affirmation
of the appeal by the Supreme Court, said warrant for the execution of the death
sentence, under seal of the court, together with the person of the condemned shall be
delivered within 10 days after such affirmation to the warden of Holman prison as
provided above.
…
Laws Regarding the Re-Setting of Execution Dates After Prior Dates Have
Expired
ALA. CODE § 15-18-84 (2020)
(a) If a condemned person escapes after sentence and before his delivery to the
warden from Holman prison and is not rearrested until after the time fixed for
execution, any person may arrest and commit him to the jail of the county in which
he was sentenced. Thereupon, the court by whom the condemned was sentenced, on
notice of such arrest being given by the sheriff, shall again appoint a time for the
execution, not less than 30 days from such appointment, which appointment shall be
by the clerk of said court immediately certified to the warden of Holman prison.
Such clerk shall place such certificate in the hands of the sheriff, who shall deliver
the same, together with the warrant for execution and the condemned person to the
warden, who shall receipt the sheriff for the same and proceed at the appointed time
to carry the sentence of death into execution as hereinabove provided.
(b) If a condemned person escapes after his delivery to the warden and is not retaken
before the time appointed for his execution, any person may arrest and commit him
to Holman prison, whereupon the warden shall certify the fact of his escape and
recapture to the court in which sentence was passed. The court shall again appoint a
time for the execution, which shall be not less than 30 days from the date of such
appointment. Thereupon, the clerk of such court shall certify such appointment to
the warden, who shall proceed at the time so appointed to execute the condemned as
hereinabove provided.
ALA. CODE § 15-18-86 (2020)
(c) Whenever the Governor is satisfied that [a pregnant person] is no longer with
child, he must issue his warrant to the sheriff appointing a day for her to be executed
according to her sentence, and the sheriff or other officer must execute the sentence
of the law on the day so appointed.

ARIZONA
Laws Regarding Initial Date Setting and Issuance of Execution Warrants
ARIZ. R. CRIM. PROC. 31.23 (2020)
(a) Issuance of Warrant. After affirming a death sentence, the Supreme Court must
issue a warrant of execution if the State files a notice stating that:
(1) the defendant has not filed a first Rule 32 petition for post-conviction relief
and the time for filing a petition has expired;
(2) the defendant has not filed a petition for review seeking review of a
superior court denial of the defendant's first Rule 32 petition for postconviction relief and the time for filing a petition for review has expired; or
(3) the defendant has not initiated habeas corpus proceedings in federal district
court within 15 days after the Supreme Court's denial of a petition for review
seeking review of the denial of the defendant's first Rule 32 petition for postconviction relief.
(b) Post-Habeas Warrant. On the State's motion, the Supreme Court must issue a
warrant of execution when federal habeas corpus proceedings and habeas appellate
review conclude.
(c) Date and Time of Execution. The warrant of execution must specify an execution
date that is 35 days after the warrant's issuance. If the Supreme Court finds that it is
impracticable to carry out an execution on that date, it may extend the execution date
but may not extend it more than 60 days after the warrant's issuance. Additionally,
the warrant must:
(1) state the date for starting the execution time period;
(2) state that the warrant is valid for 24 hours beginning at an hour to be
designated by the director of the Arizona Department of Corrections;
(3) order the director to provide written notice of the designated hour of
execution to the Supreme Court and each party at least 20 calendar days before
the execution date; and
(4) authorize the director to carry out the execution at any time during the
warrant's duration.
…

ARKANSAS
Laws Regarding Initial Date Setting
ARK. CODE ANN. § 16-90-110 (West 2020)
Where judgment of death is pronounced, the day of the execution shall be fixed in
the judgment. The day of execution shall not be in less than thirty (30) days after the
judgment.
ARK. R. CRIM. PROC. 37.5(g) (West 2020)
When the circuit court enters an order under subsection (b) of this rule [requirement
of a hearing on appointment of an attorney], the court shall also enter an order
staying any sentence of death. The stay of execution shall remain in effect until
dissolved by a court with competent jurisdiction. The circuit court shall enter an
order dissolving the stay of execution if:
(1) A timely petition is not filed under this rule; or
(2) A timely petition is filed under this rule but relief is denied by the circuit
court under subsection (i) of this rule, and the time for filing an appeal from
the denial of relief has expired without the filing of a notice of appeal.
Laws Regarding Issuance of Execution Warrants and the Re-Setting of Execution
Dates After Prior Dates Have Expired
ARK. CODE ANN. § 16-90-507 (West 2020)
(a) Whenever a judgment of death has not been executed on the day appointed
therefor by the court from any cause whatever, the Governor shall fix the day of
execution by a warrant under his or her hand and seal of the state.
(b) The warrant shall be obeyed by the Director of the Department of Correction and
no one but the Governor may then suspend the execution.

CALIFORNIA
Laws Regarding Initial Date Setting and Issuance of Execution Warrants
CAL. PENAL CODE § 1227(a) (West 2020)
If for any reason other than the pendency of an appeal pursuant to subdivision (b) of
Section 1239 of this code [section governing automatic appeals] a judgment of death
has not been executed, and it remains in force, the court in which the conviction was
had shall, on application of the district attorney, or may upon its own motion, make
and cause to be entered an order specifying a period of 10 days during which the
judgment shall be executed. The 10-day period shall begin no less than 30 days after
the order is entered and shall end no more than 60 days after the order is entered.
Immediately after the order is entered, a certified copy of the order, attested by the
clerk, under the seal of the court, shall, for the purpose of execution, be transmitted
by registered mail to the warden of the state prison having the custody of the
defendant; provided, that if the defendant be at large, a warrant for his apprehension
may be issued, and upon being apprehended, he shall be brought before the court,
whereupon the court shall make an order directing the warden of the state prison to
whom the sheriff is instructed to deliver the defendant to execute the judgment
within a period of 10 days, which shall not begin less than 30 days nor end more
than 60 days from the time of making such order.
Laws Regarding Issuance of Execution Warrants and the Re-Setting of Execution
Dates After Prior Dates Have Expired
CAL. PENAL CODE § 1227.5 (West 2020)
Notwithstanding Section 1227, where a judgment of death has not been executed by
reason of a stay or reprieve granted by the Governor, the execution shall be carried
out on the day immediately after the period of the stay or reprieve without further
judicial proceedings.
CAL. PENAL CODE § 3706 (West 2020)
If it is found that [a] female is not pregnant, the warden must execute the judgment;
if it is found that she is pregnant the warden must suspend the execution of the
judgment, and transmit a certified copy of the finding and certificate to the Governor.
When the Governor receives from the warden a certificate that the defendant is no

longer pregnant, he must issue to the warden his warrant appointing a day for the
execution of the judgment.
CAL. PENAL CODE § 3704 (West 2020)
. . . If the judge should determine that the defendant has recovered his sanity he must
certify that fact to the Governor, who must thereupon issue to the warden his warrant
appointing a day for the execution of the judgment, and the warden shall thereupon
return the defendant to the state prison pending the execution of the judgment. . . .

FLORIDA
Laws Regarding Initial Date Setting and Issuance of Execution Warrants
FLA. STAT. ANN. § 922.052 (West 2020)
…
(2)(a) The clerk of the Florida Supreme Court shall inform the Governor in writing
certifying that a person convicted and sentenced to death, before or after the effective
date of the act, has:
1. Completed such person's direct appeal and initial postconviction
proceeding in state court and habeas corpus proceeding and appeal therefrom
in federal court; or
2. Allowed the time permitted for filing a habeas corpus petition in federal
court to expire.
(b) Within 30 days after receiving the letter of certification from the clerk of the
Florida Supreme Court, the Governor shall issue a warrant for execution if the
executive clemency process has concluded, directing the warden to execute the
sentence within 180 days, at a time designated in the warrant.
(c) If, in the Governor's sole discretion, the clerk of the Florida Supreme Court has
not complied with the provisions of paragraph (a) with respect to any person
sentenced to death, the Governor may sign a warrant of execution for such person
where the executive clemency process has concluded.
(3) The sentence shall not be executed until the Governor issues a warrant, attaches
it to the copy of the record, and transmits it to the warden, directing the warden to
execute the sentence at a time designated in the warrant.

(4) If, for any reason, the sentence is not executed during the week designated, the
warrant shall remain in full force and effect and the sentence shall be carried out as
provided in s. 922.06.
Laws Regarding the Re-Setting of Execution Dates After Prior Dates Have
Expired
FLA. STAT. ANN. § 922.06 (West 2020)
…
(2)(a) If execution of the death sentence is stayed by the Governor, and the Governor
subsequently lifts or dissolves the stay, the Governor shall immediately notify the
Attorney General that the stay has been lifted or dissolved. Within 10 days after such
notification, the Governor must set the new date for execution of the death sentence.
(b) If execution of the death sentence is stayed incident to an appeal, upon
certification by the Attorney General that the stay has been lifted or dissolved, within
10 days after such certification, the Governor must set the new date for execution of
the death sentence.
...

GEORGIA
Laws Regarding Initial Date Setting
GA. CODE ANN. § 17-10-34 (West 2020)
When a person is sentenced to the punishment of death, the court shall specify the
time period for the execution in the sentence. The time period for the execution fixed
by the court shall be seven days in duration and shall commence at noon on a
specified date and shall end at noon on a specified date. The time period shall
commence not less than 20 days nor more than 60 days from the date of sentencing.
However, if the person is a female who is pregnant at the time of sentencing, the
court shall appoint a time period for execution after the female is no longer pregnant.

Laws Regarding the Re-Setting of Execution Dates After Prior Dates Have
Expired
GA. CODE ANN. § 17-10-40 (West 2020)
(a) Where the time period for the execution of any convicted person in a capital case
has passed by reason of a supersedeas incident to appellate review, a stay of
execution by the State Board of Pardons and Paroles, or for any other reason, a judge
of the superior court of the county where the case was tried shall have the power and
authority to pass an order fixing a new time period for the execution of the original
sentence without requiring the convicted person to be brought before him by a writ
of habeas corpus. The order shall be recorded on the minutes of the court and a
certified copy of the order shall be sent immediately to the convicted person's
attorney of record, to the Attorney General, and to the superintendent of the state
correctional institution at the place of execution.
(b) The new time period for the execution shall be seven days in duration and shall
commence at noon on a specified date and shall end at noon on a specified date. The
new time period for the execution fixed by the judge shall commence not less than
ten nor more than 20 days from the date of the order.
(c) The Department of Corrections shall set the day and time for execution within
the time period designated by the judge of the superior court. If the execution is not
carried out on the day and at the time originally set by the Department of Corrections,
the Department of Corrections is authorized to set new dates and times for execution
within the period designated by the judge of the superior court.

IDAHO
Laws Regarding Initial Date Setting and Issuance of Execution Warrants
IDAHO CODE ANN. § 19-2705 (West 2020)
(1) Whenever a person is sentenced to death, the judge passing sentence shall, in
accordance with section 19-2719, Idaho Code [regarding post-conviction
procedures], sign and file a death warrant fixing a date of execution not more than
thirty (30) days thereafter.
(2) The warrant shall be directed to the director of the Idaho department of correction
and shall be delivered to him forthwith.

…
Laws Regarding Issuance of Execution Warrants and the Re-Setting of Execution
Dates After Prior Dates Have Expired
IDAHO CODE ANN. § 19-2715 (West 2020)
(1) Hereafter, no further stays of execution shall be granted to persons sentenced to
death except that a stay of execution shall be granted during an appeal taken pursuant
to section 19-2719, Idaho Code, during the automatic review of judgments imposing
the punishment of death provided by section 19-2827, Idaho Code, by order of a
federal court or as part of a commutation proceeding pursuant to section 20-240,
Idaho Code.
(2) Upon remittitur or mandate after a sentence of death has been affirmed, the state
shall apply for a warrant from the district court in which the conviction was had,
authorizing execution of the judgment of death. Upon such application, the district
court shall set a new execution date not more than thirty (30) days thereafter.
(3) If a stay of execution is granted pursuant to subsection (1) of this section and as
a result, no execution takes place on the date set by the district court, upon
termination of the stay, the state shall apply for another warrant and upon such
application, the district court shall set a new execution date not more than thirty (30)
days thereafter.
(4) If for any reason, other than those set forth in subsection (1) of this section, a
judgment of death has not been executed, and it remains in force, the state shall apply
for another warrant. Upon such application, the district court may inquire into the
facts, and if no legal reason exists against the execution of the judgment, must make
an order that the warden execute the judgment at a special specified time. The
warden must execute the judgment accordingly.
(5) Action of the district court under this section is ministerial only. No hearing shall
be required for setting a new execution date and the court shall inquire only into the
fact of an existing death sentence and the absence of a valid stay of execution.
(6) For purposes of this section, the phrase “stay of execution” shall refer to a
temporary postponement of an execution as a result of a court order or an order of
the governor postponing the execution while a petition for commutation is pending.

IDAHO CODE ANN. § 19-2714 (West 2020)
If it is found by the report [required by statute] that [a] female is not pregnant, the
warden must execute the judgment; if it is found that she is pregnant, the warden
must suspend the execution of the judgment, and transmit the report to the district
court that imposed the sentence. When the district court that imposed the sentence
is satisfied that the female is no longer pregnant, he may issue his warrant appointing
a day for the execution of the judgment.

INDIANA
Laws Regarding Initial Date Setting and Issuance of Execution Warrants
IND. CODE ANN. § 35-38-6-2 (West 2020)
The court in which a death sentence is ordered shall issue a warrant to the sheriff
within fourteen (14) days of the sentence:
(1) that is under the seal of the court;
(2) that contains notice of the conviction and the sentence;
(3) that is directed to the warden of the state prison; and
(4) that orders the warden to execute the convicted person at a specified time
and date in the state prison.
Laws Regarding Issuance of Execution Warrants and the Re-Setting of Execution
Dates After Prior Dates Have Expired
IND. CODE ANN. § 35-38-6-8 (West 2020)
(a) If the execution of the death sentence is suspended, the department of correction
shall note the reason for the delay on the warrant but shall proceed with the execution
when the period of suspension ends.
(b) The warrant shall be returned to the clerk of the sentencing court after:
(1) the convicted person is executed;
(2) the convicted person has been pardoned;
(3) the convicted person's judgment has been reversed;
(4) the convicted person's sentence has been commuted; or
(5) the convicted person dies before his execution;
with a statement concerning the completion of the execution or the reason why the
person was not executed.

IND. CODE ANN. § 35-38-6-10 (West 2020)
If the physician of the state prison and one (1) other physician certify in writing to
the warden of the state prison and the sentencing court that a condemned woman is
pregnant, the warden shall suspend the execution of the sentence. When the state
prison physician and one (1) other physician certify in writing to the warden of the
state prison and the sentencing court that the woman is no longer pregnant, the
sentencing court shall immediately fix a new execution date.

KANSAS
Laws Regarding Initial Date Setting and Issuance of Execution Warrants
KAN. STAT. ANN. § 22-4013 (West 2020)
…
(b) Upon receipt of an order of the district court as provided by this act, the supreme
court shall issue to the secretary of corrections a warrant under seal of the supreme
court, commanding the secretary or a warden designated pursuant to K.S.A. 22-4001
[governing execution procedures], and amendments thereto, to proceed to carry out
the sentence of execution during the week designated by the supreme court. The
week designated in the warrant shall be sufficient to enable the secretary to give
notice as provided in subsection (c). A copy of the warrant shall be delivered to the
secretary of corrections and the clerk of the district court. For purposes of this act,
the term “week” shall mean the time period from 12:01 a.m. Sunday through and
including 11:59 p.m. the following Saturday. If the week designated in the warrant
commanding the execution of a death sentence begins on a day of the week other
than a Sunday, or sets out a particular date for the execution, the secretary of
corrections shall notify the clerk of the supreme court.
(c) The secretary of corrections shall carry out the execution commanded by the
warrant issued by the supreme court during the week designated by the supreme
court on a date selected by the secretary. The secretary shall give notice of the date
selected by the secretary for the execution at least seven calendar days before the
execution to the clerk of the supreme court, the clerk of the district court in which
the defendant was convicted, the defendant, the defendant's counsel and the attorney
general. The secretary may carry out the execution at any time during the date
selected or as soon thereafter as the secretary deems appropriate.

Laws Regarding Issuance of Execution Warrants and the Re-Setting of Execution
Dates After Prior Dates Have Expired
KAN. STAT. ANN. § 22-4013 (West 2020)
If a sentence of execution is suspended by an order of a court, the suspension shall
continue until the supreme court orders otherwise. If the sentence is affirmed, the
supreme court shall order the execution of the sentence of death and shall designate
a week during which the sentence of execution shall be carried out if the week
previously designated by the court has passed. Otherwise, the execution shall be
carried out during the week previously designated by the court. It shall be the duty
of the clerk of the supreme court to issue to the secretary of corrections a warrant
under the seal of the court, commanding the secretary or a warden designated
pursuant to K.S.A. 22-4001, and amendments thereto, to proceed to carry the
sentence into execution during the week designated by the court. The week during
which the sentence of execution is to be carried out shall be stated in the warrant.
Upon receipt of the warrant it shall be the duty of the secretary of corrections to
cause the sentence to be executed as provided by this act during the time designated
by the court.
KAN. STAT. ANN. § 22-4009 (West 2020)
(a) If a convict under sentence of death appears to be pregnant or alleges to be
pregnant, the person having custody of the convict shall notify the secretary of
corrections. The secretary shall designate one or more licensed physicians to
examine the convict to determine if the convict is pregnant. If the convict is not
pregnant, the execution shall be carried out as previously ordered. If the convict is
pregnant, the secretary of corrections shall notify the clerk of the supreme court.
Upon receipt of the notice, the supreme court shall issue to the secretary of
corrections a warrant under seal of the supreme court postponing the execution of
the sentence of death. A copy of the warrant shall be delivered to the secretary of
corrections and the clerk of the district court.
(b) When the execution of a sentence of death is postponed because of pregnancy,
the secretary of corrections shall wait until the child is born or the pregnancy is
otherwise terminated and then the secretary shall notify the clerk of the supreme
court of the birth of the child or termination of the pregnancy. Upon receipt of the
notice, the supreme court shall issue to the secretary of corrections a warrant under
seal of the supreme court, commanding the secretary or a warden designated
pursuant to K.S.A. 22-4001, and amendments thereto, to proceed to carry out the

sentence of execution during the week designated by the supreme court. A copy of
the warrant shall be delivered to the secretary of corrections and the clerk of the
district court. At any time during the postponement of the execution, the secretary
may order an examination as provided in this section to determine whether the
convict remains pregnant. The costs of each medical examination conducted
pursuant to this section shall be paid by the county where the case originated.
KAN. STAT. ANN. § 22-4011 (West 2020)
If any person who has been sentenced to death escapes and is not retaken before the
time fixed for execution, it shall be lawful for any sheriff or other officer or person
to rearrest and return the person to the custody of the secretary of corrections. Upon
such return to custody, the secretary of corrections shall give notice thereof to the
clerk of the supreme court. Upon receipt of such notice, the supreme court shall issue
to the secretary of corrections a warrant under seal of the supreme court,
commanding the secretary or a warden designated pursuant to K.S.A. 22-4001, and
amendments thereto, to proceed to carry out the sentence of execution during the
week designated by the supreme court which shall be carried into effect in the same
manner as provided by statute for the execution of an original sentence of death. A
copy of the warrant shall be delivered to the secretary of corrections and the clerk of
the district court.

KENTUCKY
Laws Regarding Initial Date Setting
KY. REV. STAT. ANN. § 431.218 (West 2020)
When a judgment sentencing the defendant to death has been affirmed, the mandate
shall fix the day of the execution as the fifth Friday following the date of the mandate
of the court. The clerk of the Supreme Court shall transmit either by special
messenger or by certified mail, return receipt requested, a certified copy of the
mandate to the proper officer which shall be the authority of such officer to carry the
mandate into effect. The officer receiving the copy shall report his action both to the
governor and to the circuit court. If from any cause the execution does not take place
on the day appointed in the mandate, the governor may from time to time appoint
another day for execution until the sentence is carried into effect.

Laws Regarding Issuance of Execution Warrants and the Re-Setting of Execution
Dates After Prior Dates Have Expired
KY. REV. STAT. ANN. § 431.240 (West 2020)
(1) Unless the execution is stayed for any cause, the warden of the institution or his
deputy shall proceed, on the day named in the judgment of conviction, a governor's
warrant, or an order of the court, to cause the condemned person to be executed. The
execution shall take place at a time designated by the warden of the institution where
the execution is to take place on the day designated in the judgment of conviction,
the governor's warrant, or an order of the court.
(2) If the condemned person is insane, as defined in KRS 431.213 or pregnant with
child on the day designated for the execution, the execution shall be suspended until
the condemned is restored to sanity or is delivered of child. The execution shall then
take place under the warrant of the Governor and at the time designated by him,
unless stayed by due process of law. If execution is suspended on the ground of
insanity, the commissioner of the Department of Corrections shall transfer the
condemned person to the Kentucky Correctional Psychiatric Center until the time he
is restored to sanity. Any administrative hearings authorized under authority of this
section shall be conducted in accordance with KRS Chapter 13B.
(3) If the condemned person escapes from custody and is recaptured after the
expiration of the date fixed for the execution, the Governor, upon receiving written
notice of the recapture from the warden of the institution, shall send his warrant of
execution to the warden by special messenger and shall name therein the day of
execution. The warden shall then proceed to the execution thereof according to the
provisions of KRS 431.215 to 431.270 [reciting execution procedures].
(4) When a judgment of death has not been executed on the day appointed therefor
by the court, from any cause, the Governor, by a warrant under his hand and the seal
of the Commonwealth, shall fix the day of the execution, which warrant shall be
obeyed by the warden of the institution.

LOUISIANA
Laws Regarding Initial Date Setting, Issuance of Execution Warrants, and the
Re-Setting of Execution Dates After Prior Dates Have Expired
LA. STAT. ANN. § 15:567 (2020)
…
(B) The court of original jurisdiction shall also issue a warrant commanding the
secretary to cause the execution of the person condemned as provided by law. The
warrant shall specify the date upon which the person condemned shall be put to
death, which date shall be not less than sixty days nor more than ninety days from
the date the warrant is issued. Upon receipt of the warrant the secretary shall cause
a copy of the warrant to be delivered to the person condemned. A certified copy of
the warrant shall be mailed, return receipt requested, to the governor and the return
receipt filed in the record.
(C) If any federal or Louisiana court grants a stay of execution, or if the governor of
Louisiana grants a reprieve, the trial court shall reset the execution date at not less
than thirty days nor more than forty-five days from the dissolution of the stay order,
or termination or expiration of the reprieve.
(D) The execution of a female who has been clinically diagnosed as being pregnant
shall be suspended. The trial court shall reset the execution date at not less than
ninety days nor more than one hundred twenty days from the date of delivery of the
baby, a miscarriage, or voluntary termination of the pregnancy.
(E) The failure of the trial court to fix an execution date within the time limits of this
Section shall not affect the validity of a sentence of death. In such a case, the attorney
general shall bring a mandamus proceeding in any court of competent jurisdiction to
have the trial court set the execution date at not less than thirty days nor more than
forty-five days from the date of issuance of the mandamus order.

MISSISSIPPI
Laws Regarding Issuance of Execution Warrants
MISS. CODE ANN. § 99-19-55 (2020)
…
(2) When a person is sentenced to suffer death in the manner provided by law, it
shall be the duty of the clerk of the court to deliver forthwith to the Commissioner
of Corrections a warrant for the execution of the condemned person. It shall be the
duty of the commissioner forthwith to notify the State Executioner of the date of the
execution and it shall be the duty of the said State Executioner, or any person
deputized by him in writing, in the event of his physical disability, as hereinafter
provided, to be present at such execution, to perform the same, and have general
supervision over said execution.
…
Laws Regarding Initial Date Setting and the Re-Setting of Execution Dates After
Prior Dates Have Expired
MISS. CODE ANN. § 99-19-106 (2020)
When judgment of death becomes final and a writ of certiorari to the United States
Supreme Court has been denied or the time for filing such petition has expired, the
court shall set an execution date for a person sentenced to the death penalty. Within
sixty (60) days following the appointment of post-conviction counsel, upon
declaration by counsel that he deems post-conviction review to be meritorious and
that he intends to file an application for post-conviction review, the court may stay
execution pending the disposition of the post-conviction proceeding. In the event no
application for post-conviction relief is filed within one (1) year of the date of the
disposition of the petition for writ of certiorari or the time for certiorari has expired,
any stay entered by the court will automatically vacate. The filing of a declaration
by counsel that he deems post-conviction review to be meritorious and intends to
file an application for post-conviction review shall in no manner constitute the filing
of an application for post-conviction review that would toll the running of any statute
of limitations. Setting or resetting the date of execution shall be made on motion of
the state that all state and federal remedies have been exhausted, or that the defendant
has failed to file for further state or federal review within the time allowed by law.

MISS. CODE ANN. § 99-19-57 (2020)
(1) If the Commissioner of Corrections at any time is satisfied that any female
offender in his custody under sentence of death is pregnant, he shall summon a
physician to inquire into the pregnancy. The commissioner shall summons and swear
all necessary witnesses and the commissioner after full examination shall certify
under his hand what the truth may be in relation to the alleged pregnancy, and in
case the offender is found to be pregnant, the commissioner shall immediately
transmit his findings to the Governor, and the Governor shall suspend the execution
of the sentence until he is satisfied that the offender is not or is no longer pregnant.
The Governor shall then order, by his warrant to the commissioner, the execution of
the offender on a day to be appointed by the Governor according to the sentence and
judgment of the court.
(2)(a) If it is believed that an offender under sentence of death has become mentally
ill since the judgment of the court, the following shall be the exclusive procedural
and substantive procedure. The offender, or a person acting as his next friend, or the
Commissioner of Corrections may file an appropriate application seeking postconviction relief with the Mississippi Supreme Court. If it is found that the offender
is a person with mental illness, as defined in this subsection, the court shall suspend
the execution of the sentence. The offender shall then be committed to the forensic
unit of the Mississippi State Hospital at Whitfield. The order of commitment shall
require that the offender be examined and a written report be furnished to the court
at that time and every month thereafter, stating whether there is a substantial
probability that the offender will become sane under this subsection within the
foreseeable future and whether progress is being made toward that goal. If at any
time during the commitment, the appropriate official at the state hospital considers
the offender to be sane under this subsection, the official shall promptly notify the
court to that effect in writing and place the offender in the custody of the
Commissioner of Corrections. The court then shall conduct a hearing on the sanity
of the offender. The finding of the circuit court is a final order appealable under the
terms and conditions of the Mississippi Uniform Post-Conviction Collateral Relief
Act.
…

MISSOURI
Laws Regarding Initial Date Setting and Issuance of Execution Warrants
MO. REV. STAT. § 546.680 (2020)
When judgment of death is rendered by any court of competent jurisdiction, a
warrant signed by the judge and attested by the clerk under the seal of the court must
be drawn and delivered to the sheriff. It must state the conviction and judgment and
appoint a day on which the judgment must be executed, which must not be less than
thirty nor more than sixty days from the date of judgment, and must direct the sheriff
to deliver the defendant, at a time specified in said order, not more than ten days
from the date of judgment, to the chief administrative officer of a correctional facility
of the department of corrections, for execution.
Laws Regarding Issuance of Execution Warrants and the Re-Setting of Execution
Dates After Prior Dates Have Expired
MO. REV. STAT. § 546.700 (2020)
Whenever, for any reason, any convict sentenced to the punishment of death shall
not have been executed pursuant to such sentence, and the cause shall stand in full
force, the supreme court, or the court of the county in which the conviction was had,
on the application of the prosecuting attorney, shall issue a writ of habeas corpus to
bring such convict before the court; or if he be at large, a warrant for his
apprehension may be issued by such court, or any judge thereof.
MO. REV. STAT. § 546.710 (2020)
Upon such convicted offender being brought before the court, they shall proceed to
inquire into the facts, and if no legal reasons exist against the execution of sentence,
such court shall issue a warrant to the director of the department of corrections, for
the execution of the prisoner at the time therein specified, which execution shall be
obeyed by the director accordingly.

MONTANA
Laws Regarding Initial Date Setting, Issuance of Execution Warrants, and the
Re-Setting of Execution Dates After Prior Dates Have Expired
MONT. CODE ANN. § 46-19-103 (West 2020)
(1) In pronouncing the sentence of death, the court shall set the date of execution,
which may not be less than 30 days or more than 60 days from the date the sentence
is pronounced. If execution has been stayed by any court and the date set for
execution has passed prior to dissolution of the stay, the court in which the defendant
was previously sentenced shall, upon dissolution of the stay, set a new date of
execution for not less than 20 or more than 90 days from the day the date is set. The
defendant is entitled to be present in court on the day the new date of execution is
set.
…
(4) When an execution date is set, a death warrant signed by the judge and attested
by the clerk of court under the seal of the court must, within 5 days, be prepared.
The warrant and a certified copy of the judgment must be delivered to the director
of the department of corrections. The warrant must be directed to the director and
recite the conviction, judgment, appointed date of execution, and duration of the
warrant.
…
MONT. CODE ANN. § 46-19-202 (West 2020)
…
(2) If it is found that the defendant lacks fitness, the execution of judgment must be
suspended and the court shall commit the defendant to the custody of the
superintendent of the Montana state hospital to be placed in an appropriate facility
of the department of public health and human services for as long as the lack of
fitness endures.
(3) When the court, on its own motion or upon application of the superintendent of
the Montana state hospital, the county prosecuting officer, or the defendant or the
defendant's legal representative, determines after a hearing, if a hearing is requested,
that the defendant has regained fitness to proceed, the warden must be directed by
the court to carry out the execution. If, however, the court is of the view that so much
time has elapsed since the commitment of the defendant that it would be unjust to

proceed with execution of the sentence, the court may suspend the execution of the
sentence and may order the defendant to be discharged.
MONT. CODE ANN. § 46-19-204 (West 2020)
If it is found . . . that [a] woman is not pregnant, the warden of the Montana state
prison shall execute the judgment. If it is found that the woman is pregnant, the
warden shall suspend the execution of judgment and transmit the inquisition to the
governor. When the governor is satisfied that the woman is no longer pregnant, the
governor may issue a death warrant appointing a day for the execution of the
judgment. The warrant must recite the conviction, the judgment, the method of
execution, that execution of judgment was suspended due to pregnancy, that the
governor is satisfied that the woman is no longer pregnant, the appointed date for
the execution, and the duration of the warrant.

NEBRASKA
Laws Regarding Initial Date Setting
NEB. REV. STAT. ANN. § 29-2528 (West 2020)
In all cases when the death penalty has been imposed by the district court, the
Supreme Court shall, after consideration of the appeal, order the prisoner to be
discharged, a new trial to be had, or appoint a day certain for the execution of the
sentence.
Laws Regarding Issuance of Execution Warrants and the Re-Setting of Execution
Dates After Prior Dates Have Expired
NEB. REV. STAT. ANN. § 29-2543 (West 2020)
(1) Whenever any person has been tried and convicted before any district court in
this state, has been sentenced to death, and has had his or her sentence of death
affirmed by the Supreme Court on mandatory direct review, it shall be the duty of
the Supreme Court to issue a warrant, under the seal of the court, reciting therein the
conviction and sentence and establishing a date for the enforcement of the sentence
directed to the Director of Correctional Services, commanding him or her to proceed
at the time named in the warrant. The date of execution shall be set no later than
sixty days following the issuance of the warrant.

(2) Thereafter, if the initial execution date has been stayed and the original execution
date has expired, the Supreme Court shall establish a new date for enforcement of
the sentence upon receipt of notice from the Attorney General that the stay of
execution is no longer in effect and issue its warrant to the director. The date of
execution shall be set no later than sixty days following the issuance of the warrant.
NEB. REV. STAT. ANN. § 29-2538 (West 2020)
If a court has suspended the execution of the convicted person pending an
investigation as to his or her competency, the date for the enforcement of the
convicted person's sentence has passed, and the convicted person is found to be
competent, the court shall certify that finding to the Supreme Court which shall
appoint a day for the enforcement of the convicted person's sentence.
NEB. REV. STAT. ANN. § 29-2542 (West 2020)
If any person who has been convicted of a crime punishable by death, and sentenced
to death, shall escape, and shall not be retaken before the time fixed for his or her
execution, it shall be lawful for the Director of Correctional Services, or any sheriff
or other officer or person, to rearrest such person and return him or her to the custody
of the director, who shall thereupon notify the Supreme Court that such person has
been returned to custody. Upon receipt of that notice, the Supreme Court shall then
issue a warrant, fixing a date for the enforcement of the sentence which shall be
delivered to the director. The date of execution shall be set no later than sixty days
following the issuance of the warrant.
NEB. REV. STAT. ANN. § 29-2541 (West 2020)
If the commission appointed pursuant to section 29-2537 [procedures for
determining pregnancy] finds that the female convicted person is pregnant, the court
shall suspend the execution of her sentence. At such time as it shall be determined
that such woman is no longer pregnant, the judge shall appoint a date for her
execu1tion and issue a warrant directing the enforcement of the sentence of death
which shall be delivered to the Director of Correctional Services. The costs and
expenses thereof shall be the same as those provided for in the case of an
incompetent convicted person and shall be paid in the same manner.

NEB. REV. STAT. ANN. § 29-2537 (West 2020)
(1) If any convicted person under sentence of death shall appear to be incompetent,
the Director of Correctional Services shall forthwith give notice thereof to a judge
of the district court of the judicial district in which the convicted person was tried
and sentenced and such judge shall at once make such investigation as shall satisfy
him or her as to whether a commission ought to be named to examine such convicted
person.
(2) If the court determines that there is not sufficient reason for the appointment of
a commission, the court shall so find and refuse to suspend the execution of the
convicted person. If the court determines that a commission ought to be appointed
to examine such convicted person, the court shall make a finding to that effect and
cause it to be entered upon the records of the district court in the county in which
such convicted person was sentenced, and, if necessary, the court shall suspend the
execution and appoint three licensed mental health professionals employed by the
state as a commission to examine such convicted person. The commission shall
examine the convicted person to determine whether he or she is competent or
incompetent and shall report its findings in writing to the court within ten days after
its appointment. If two members of the commission find the convicted person
incompetent, the court shall suspend the convicted person's execution until further
order. Thereafter, the court shall appoint a commission annually to review the
convicted person's competency. The results of such review shall be provided to the
court. If the convicted person is subsequently found to be competent by two
members of the commission, the court shall certify that finding to the Supreme Court
which shall then establish a date for the enforcement of the convicted person's
sentence.

NEVADA
Laws Regarding Initial Date Setting and Issuance of Execution Warrants
NEV. REV. STAT. ANN. § 176.345 (West 2020)
(1) When a judgment of death has been pronounced, a certified copy of the judgment
of conviction must be forthwith executed and attested in triplicate by the clerk under
the seal of the court. There must be attached to the triplicate copies a warrant signed
by the judge, attested by the clerk, under the seal of the court, which:
(a) Recites the fact of the conviction and judgment;

(b) Appoints a week, the first day being Monday and the last day being
Sunday, within which the judgment is to be executed, which must not be less
than 60 days nor more than 90 days from the time of judgment; and
(c) Directs the sheriff to deliver the prisoner to such authorized person as the
Director of the Department of Corrections designates to receive the prisoner,
for execution. The prison must be designated in the warrant.
(2) The original of the triplicate copies of the judgment of conviction and warrant
must be filed in the office of the county clerk, and two of the triplicate copies must
be immediately delivered by the clerk to the sheriff of the county. One of the
triplicate copies must be delivered by the sheriff, with the prisoner, to such
authorized person as the Director of the Department of Corrections designates, and
is the warrant and authority of the Director for the imprisonment and execution of
the prisoner, as therein provided and commanded. The Director shall return the
certified copy of the judgment of conviction to the county clerk of the county in
which it was issued. The other triplicate copy is the warrant and authority of the
sheriff to deliver the prisoner to the authorized person designated by the Director.
The final triplicate copy must be returned to the county clerk by the sheriff with the
sheriff’s proceedings endorsed thereon.
NEV. REV. STAT. ANN. § 176.355 (West 2020)
…
(2) The Director of the Department of Corrections shall:
(a) Execute a sentence of death within the week, the first day being Monday
and the last day being Sunday, that the judgment is to be executed, as
designated by the district court. The Director may execute the judgment at any
time during that week if a stay of execution is not entered by a court of
appropriate jurisdiction.
…
Laws Regarding Issuance of Execution Warrants and the Re-Setting of Execution
Dates After Prior Dates Have Expired
NEV. REV. STAT. ANN. § 176.495 (West 2020)
(1) If for any reason a judgment of death has not been executed, and it remains in
force, the court in which the conviction was had must, upon the application of the
Attorney General or the district attorney of the county in which the conviction was
had, cause another warrant to be drawn, signed by the judge and attested by the clerk

under the seal of the court, and delivered to the Director of the Department of
Corrections.
(2) The warrant must state the conviction and judgment and appoint a week, the first
day being Monday and the last day being Sunday, within which the judgment is to
be executed. The first day of that week must be not less than 15 days nor more than
30 days after the date of the warrant. The Director shall execute a sentence of death
within the week the judgment is to be executed, as designated by the district court.
The Director may execute the judgment at any time during that week if a stay of
execution is not entered by a court of appropriate jurisdiction.
NEV. REV. STAT. ANN. § 176.505 (West 2020)
(1) When a remittitur showing the affirmation of a judgment of death has been filed
with the clerk of the court from which the appeal has been taken, the court in which
the conviction was obtained shall inquire into the facts, and, if no legal reasons exist
prohibiting the execution of the judgment, shall make and enter an order requiring
the Director of the Department of Corrections to execute the judgment at a specified
time. The presence of the defendant in the court at the time the order of execution is
made and entered, or the warrant is issued, is not required.
(2) When an opinion, order dismissing appeal or other order upholding a sentence
of death is issued by the appellate court of competent jurisdiction pursuant to chapter
34 or 177 of NRS, the court in which the sentence of death was obtained shall inquire
into the facts and, if no legal reason exists prohibiting the execution of the judgment,
shall make and enter an order requiring the Director of the Department of
Corrections to execute the judgment during a specified week. The presence of the
defendant in the court when the order of execution is made and entered, or the
warrant is issued, is not required.
(3) Notwithstanding the entry of a stay of issuance of a remittitur in the appellate
court of competent jurisdiction following denial of appellate relief in a proceeding
brought pursuant to chapter 34 or 177 of NRS, the court in which the conviction was
obtained shall, upon application of the Attorney General or the district attorney of
the county in which the conviction was obtained, cause another warrant to be drawn,
signed by the judge and attested by the clerk under the seal of the court, and delivered
to the Director of the Department of Corrections.

NEV. REV. STAT. ANN. § 176.455 (West 2020)
(1) If it is found by the court that the convicted person is insane, the judge shall make
and enter an order staying the execution of the judgment of death until the convicted
person becomes sane, and shall therein order the Director of the Department of
Corrections to confine such person in a safe place of confinement until the convicted
person’s reason is restored.
…
(3) If the convicted person thereafter becomes sane, notice of this fact shall be given
by the Director to a judge of the court staying the execution of the judgment, and the
judge, upon being satisfied that such person is then sane, shall enter an order vacating
the order staying the execution of the judgment.
(4) The clerk of the court shall immediately serve or cause to be served three certified
copies of such vacating order as follows: One on the Director, one on the Governor,
for the use of the State Board of Pardons Commissioners, and one on the clerk of the
district court of the county in which the conviction was had, who shall give notice
thereof to the district attorney of such county, whereupon proceedings shall be
instituted in the last mentioned district court for the issuance of a new warrant of
execution of the judgment of death in the manner provided in NRS 176.495.
NEV. REV. STAT. ANN. § 176.475 (West 2020)
2. If [a] female is found to be pregnant, the judge shall enter an order staying the
execution of the judgment of death, and shall therein order the Director to confine
such female in a safe place of confinement commensurate with her condition until
further order of the court.
3. When such female is no longer pregnant, notice of this fact shall be given by the
Director to a judge of the court staying the execution of the judgment. Thereupon
the judge, upon being satisfied that the pregnancy no longer exists, shall enter an
order vacating the order staying the execution of the judgment and shall direct the
clerk of such court to serve or cause to be served three certified copies of such order,
one on the Director, one on the Governor, for the use of the State Board of Pardons
Commissioners, and one on the clerk of the district court of the county in which the
conviction was had, who shall give notice thereof to the district attorney of such
county, whereupon proceedings shall be instituted in the last mentioned district court
for the issuance of a new warrant of execution of the judgment in the manner
provided in NRS 176.495.

NORTH CAROLINA
Laws Regarding Initial Date Setting and the Re-Setting of Execution Dates After
Prior Dates Have Expired
N.C. GEN. STAT ANN. § 15-194 (West 2020)
(a) In sentencing a capital defendant to a death sentence pursuant to G.S. 15A2000(b), the sentencing judge need not specify the date and time the execution is to
be carried out by the Division of Adult Correction and Juvenile Justice of the
Department of Public Safety. The Attorney General of North Carolina shall provide
written notification to the Secretary of the Department of Public Safety of the
occurrence of any of the following not more than 90 days from that occurrence:
(1) The United States Supreme Court has filed an opinion upholding the
sentence of death following completion of the initial State and federal
postconviction proceedings, if any;
(2) The mandate issued by the Supreme Court of North Carolina on direct
appeal pursuant to N.C.R. App. P. 32(b) affirming the capital defendant's
death sentence and the time for filing a petition for writ of certiorari to the
United States Supreme Court has expired without a petition being filed;
(3) The capital defendant, if indigent, failed to timely seek the appointment of
counsel pursuant to G.S. 7A-451(c), or failed to file a timely motion for
appropriate relief as required by G.S. 15A-1415(a);
(4) The superior court denied the capital defendant's motion for appropriate
relief, but the capital defendant failed to file a timely petition for writ of
certiorari to the Supreme Court of North Carolina pursuant to N.C.R. App. P.
21(f);
(5) The Supreme Court of North Carolina denied the capital defendant's
petition for writ of certiorari pursuant to N.C.R. App. P. 21(f), or, if certiorari
was granted, upheld the capital defendant's death sentence, but the capital
defendant failed to file a timely petition for writ of certiorari to the United
States Supreme Court; or
(6) Following State postconviction proceedings, if any, the capital defendant
failed to file a timely petition for writ of habeas corpus in the appropriate
federal district court, or failed to timely appeal or petition an adverse habeas
corpus decision to the United States Court of Appeals for the Fourth Circuit
or the United States Supreme Court.
The Secretary of the Department of Public Safety shall immediately schedule a date
for the execution of the original death sentence not less than 15 days or more than

120 days from the date of receiving written notification from the Attorney General
under this section.
…

OHIO
Laws Regarding Initial Date Setting
OHIO REV. CODE ANN. § 2949.22 (West 2020)
…
(B) A death sentence shall be executed . . . on the day designated by the judge passing
sentence or otherwise designated by a court in the course of any appellate or
postconviction proceedings.
…
Laws Regarding the Re-Setting of Execution Dates After Prior Dates Have
Expired
OHIO REV. CODE ANN. § 2949.28 (West 2020)
…
(B)(4) Execution of the sentence shall be suspended pending completion of [an
insanity] inquiry only upon an order of the supreme court. If the supreme court issues
an order granting a stay of execution, the supreme court in that order also may
authorize the court of common pleas to continue the stay of execution or to set a new
date for execution as provided in this section or section 2949.29 of the Revised Code.
…
OHIO REV. CODE ANN. § 2949.29 (West 2020)
…
(B) If it is found that the convict is insane and if authorized by the supreme court,
the judge shall continue any stay of execution of the sentence previously issued,
order the convict to be confined in the area at which other convicts sentenced to
death are confined or in a maximum security medical or psychiatric facility operated
by the department of rehabilitation and correction, and order treatment of the
convict. Thereafter, the court at any time may conduct and, on motion of the
prosecuting attorney, shall conduct a hearing pursuant to division (A) of this section
to continue the inquiry into the convict's insanity and, as provided in section 2949.28

of the Revised Code, may appoint one or more psychiatrists or psychologists to make
a further examination of the convict and to submit a report to the court. If the court
finds at the hearing that the convict is not insane and if the time previously appointed
for execution of the sentence has not passed, the sentence shall be executed at the
previously appointed time. If the court finds at the hearing that the convict is not
insane and if the time previously appointed for execution of the sentence has passed,
the judge who conducts the hearing, if authorized by the supreme court, shall appoint
a new time for execution of the sentence to be effective fifteen days from the date of
the entry of the judge's findings in the hearing.
…
OHIO REV. CODE ANN. § 2949.27 (West 2020)
If a convicted felon escapes after sentence of death, and is not retaken before the
time fixed for his execution, any sheriff may rearrest and commit him to the county
jail, and make return thereof to the court in which the sentence was passed. Such
court shall again fix the time for execution, which shall be carried into effect as
provided in sections 2949.21 to 2949.26 [execution procedures], inclusive, of the
Revised Code.
OHIO REV. CODE ANN. § 2949.31 (West 2020)
…
If it is found at the inquiry that the convict is pregnant, the judge shall suspend
execution of the sentence and order the convict to be confined in the area at which
other convicts sentenced to death are confined or in an appropriate medical facility.
When the court finds that the convict no longer is pregnant, if the time previously
appointed for execution of the sentence has not passed, the sentence shall be
executed at the previously appointed time. When the court finds that the convict no
longer is pregnant, if the time previously appointed for execution of the sentence has
passed, the judge who conducts the inquiry, if authorized by the supreme court, shall
appoint a new time for execution of the sentence to be effective fifteen days from
the date of the entry of the judge's ruling in the inquiry.

OKLAHOMA
Laws Regarding Initial Date Setting and Issuance of Execution Warrants
OKLA. STAT. ANN. tit. 22 § 1001 (West 2020)
When judgment of death is rendered, the judge must sign and deliver to the sheriff
of the county a warrant duly attested by the clerk, under the seal of the court, stating
the conviction and judgment and appointing a day on which the judgment is to be
executed, which must be not less than sixty (60) nor more than ninety (90) days from
the time of the judgment and must direct the sheriff to deliver the defendant within
ten (10) days from the time of judgment to the warden of the state prison at
McAlester, in this state, for execution.
Laws Regarding Issuance of Execution Warrants and the Re-Setting of Execution
Dates After Prior Dates Have Expired
OKLA. STAT. ANN. tit. 22 § 1001.1 (West 2020)
(A) The execution of the judgment in cases where sentence of death is imposed shall
be ordered by the Court of Criminal Appeals to be carried out thirty (30) days after
the defendant fails to meet any of the following time conditions:
1. If a defendant does not file a petition for writ of certiorari in the United
States Supreme Court within ninety (90) days from the issuance of the
mandate in the original state direct appeal unless a first application for postconviction relief is pending;
2. If a defendant does not file an original application for post-conviction relief
in the Court of Criminal Appeals within ninety (90) days from the filing of
the appellee's brief on direct appeal or, if a reply brief is filed, ninety (90) days
from the filing of that reply brief, or a petition in error to the Court of Criminal
Appeals after remand within thirty (30) days from entry of judgment by the
district court disposing of the application for post-conviction relief;
3. If a defendant does not file a writ of certiorari to the United States Supreme
Court within ninety (90) days from a denial of state post-conviction relief by
the Oklahoma Court of Criminal Appeals;
4. If a defendant does not file the first petition for a federal writ of habeas
corpus within sixty (60) days from a denial of the certiorari petition or from a
decision by the United States Supreme Court from post-conviction relief;

5. If a defendant does not file an appeal in the United States Court of Appeals
for the Tenth Circuit from a denial of a federal writ of habeas corpus within
seventy (70) days; or
6. If a defendant does not file a petition for writ of certiorari with the United
States Supreme Court from a denial of the appeal of the federal writ of habeas
corpus within ninety (90) days.
…
(D) Should a stay of execution be issued by any state or federal court, a new
execution date shall be set by operation of law sixty (60) days after the dissolution
of the stay of execution. The new execution date shall be set by the Court of Criminal
Appeals without necessity of application by the state, but the Attorney General, on
behalf of the state, shall bring to the attention of the Court of Criminal Appeals the
fact of the dissolution of a stay of execution and suggest the appropriateness of the
setting of a new execution date.
(E) After an execution date has been set pursuant to the provisions of this section,
should a stay of execution be issued by any state or federal court, a new execution
date shall be set by operation of law thirty (30) days after the dissolution of the stay
of execution. The new execution date shall be set by the Court of Criminal Appeals
without necessity of application by the state, but the Attorney General, on behalf of
the state, shall bring to the attention of the Court of Criminal Appeals the fact of the
dissolution of a stay of execution and suggest the appropriateness of setting a new
execution date.
(F) After an execution date has been set pursuant to the provisions of this section,
should a stay of execution be issued by any state or federal court and then vacated
by such court, the sentence of death shall be carried out as ordered prior to the
issuance of such vacated stay of execution. If the prior execution date has expired
prior to the vacation of the stay of execution, a new execution date shall be set by
operation of law thirty (30) days after the vacation of the stay of execution. The new
execution date shall be set by the Court of Criminal Appeals without necessity of
application by the state, but the Attorney General, on behalf of the state, shall bring
to the attention of the Court of Criminal Appeals the fact of a vacation of the stay of
execution and suggest the appropriateness of the setting of a new execution date.
(G) After an execution date has been set pursuant to the provisions of this section,
should the Governor of the State of Oklahoma issue a stay of execution pursuant to
the powers articulated in Section 10 of Article VI of the Oklahoma Constitution, the
Governor shall, simultaneous to the granting of the stay, set a new execution date.

The sentence of death shall be carried out not more than thirty (30) days after the
dissolution of the stay of execution; however, nothing shall prevent the Governor
from ordering the new execution date to be on the first day immediately following
dissolution of the stay.
OKLA. STAT. ANN. tit. 22 § 1008 (West 2020)
If it is found that the defendant is sane the warden must proceed to execute the
judgment as certified in the warrant; if it is found that the defendant is insane, the
warden must suspend the execution and transmit a certified copy of the order
mentioned in the last section to the Governor and deliver the defendant, together
with a certified copy of such order to the medical superintendent of the hospital
named in such order. When the defendant recovers his reason the superintendent of
such hospital must certify that fact to the Governor, who must thereupon issue to the
warden his warrant, appointing a day for the execution of the judgment.
OKLA. STAT. ANN. tit. 22 § 1011 (West 2020)
If it is found that a female is not pregnant the warden must execute the judgment. If
it is found that she is pregnant, the warden must suspend the execution of the
judgment and transmit a certified copy of the findings and certificate to the
Governor. When the Governor receives from the warden a certificate that the
defendant is no longer pregnant, he must issue to the warden his warrant appointing
a day for the execution of the judgment.

OREGON
Laws Regarding Initial Date Setting, Issuance of Execution Warrants, and the
Re-Setting of Execution Dates After Prior Dates Have Expired
OR. REV. STAT. ANN. § 137.463 (West 2020)
(1) When a sentence of death is pronounced, the clerk of the court shall deliver a
copy of the judgment of conviction and sentence of death to the sheriff of the county.
The sheriff shall deliver the defendant within 20 days from the date the judgment is
entered to the correctional institution designated by the Director of the Department
of Corrections pending the determination of the automatic and direct review by the
Supreme Court under ORS 138.052.

(2) If the Supreme Court affirms the sentence of death, a death warrant hearing shall
take place in the court in which the judgment was rendered within 30 days after the
effective date of the appellate judgment or, upon motion of the state, on a later date.
The following apply to a death warrant hearing under this subsection:
(a) The defendant must be present; and
(b) The defendant may be represented by counsel. If the defendant was
represented by appointed counsel on automatic and direct review, that
counsel's appointment continues for purposes of the death warrant hearing and
any related matters. If that counsel is unavailable, the court shall appoint
counsel pursuant to the procedure in ORS 135.050 and 135.055.
(3)(a) If the defendant indicates the wish to waive the right to counsel for the purpose
of the death warrant hearing, the court shall inquire of the defendant on the record
to ensure that the waiver is competent, knowing and voluntary.
(b) If the court finds that the waiver is competent, knowing and voluntary, the
court shall discharge counsel.
(c) If the court finds on the record that the waiver of the right to counsel
granted by this section is not competent, knowing or voluntary, the court shall
continue the appointment of counsel.
(d) Notwithstanding the fact that the court finds on the record that the
defendant competently, knowingly and voluntarily waives the right to
counsel, the court may continue the appointment of counsel as advisor only
for the purposes of the death warrant hearing.
(4) At the death warrant hearing, the court:
(a) After appropriate inquiry, shall make findings on the record whether the
defendant suffers from a mental condition that prevents the defendant from
comprehending the reasons for the death sentence or its implication. The
defendant has the burden of proving by a preponderance of the evidence that
the defendant suffers from a mental condition that prevents the defendant from
comprehending the reasons for the death sentence or its implication.
(b) Shall advise the defendant that the defendant is entitled to counsel in any
post-conviction proceeding and that counsel will be appointed if the defendant
is financially eligible for appointed counsel at state expense.
(c) Shall determine whether the defendant intends to pursue any challenges to
the sentence or conviction. If the defendant states on the record that the
defendant does not intend to challenge the sentence or conviction, the court
after advising the defendant of the consequences shall make a finding on the
record whether the defendant competently, knowingly and voluntarily waives
the right to pursue:

(A) A petition for certiorari to the United States Supreme Court;
(B) Post-conviction relief under ORS 138.510 to 138.680; and
(C) Federal habeas corpus review under 28 U.S.C. 2254.
(5) Following the death warrant hearing, a death warrant, signed by the trial judge
of the court in which the judgment was rendered and attested by the clerk of that
court, shall be drawn and delivered to the superintendent of the correctional
institution designated by the Director of the Department of Corrections. The death
warrant shall specify a day on which the sentence of death is to be executed and shall
authorize and command the superintendent to execute the judgment of the court. The
trial court shall specify the date of execution of the sentence, taking into
consideration the needs of the Department of Corrections. The trial court shall
specify a date not less than 90 days nor more than 120 days following the effective
date of the appellate judgment.
(6)(a) Notwithstanding any other provision in this section, if the court finds that the
defendant suffers from a mental condition that prevents the defendant from
comprehending the reasons for the sentence of death or its implications, the court
may not issue a death warrant until such time as the court, after appropriate inquiries,
finds that the defendant is able to comprehend the reasons for the sentence of death
and its implications.
(b)(A) If the court does not issue a death warrant because it finds that the
defendant suffers from a mental condition that prevents the defendant from
comprehending the reasons for the sentence of death or its implications, the
court shall conduct subsequent hearings on the issue on motion of the district
attorney or the defendant's counsel or on the court's own motion, upon a
showing that there is substantial reason to believe that the defendant's
condition has changed.
(B) The court may hold a hearing under this paragraph no more
frequently than once every six months.
(C) The state and the defendant may obtain an independent medical,
psychiatric or psychological examination of the defendant in
connection with a hearing under this paragraph.
(D) In a hearing under this paragraph, the defendant has the burden of
proving by a preponderance of the evidence that the defendant
continues to suffer from a mental condition that prevents the defendant
from comprehending the reasons for the sentence of death or its
implications.

(7) If for any reason a sentence of death is not executed on the date appointed in the
death warrant, and the sentence of death remains in force and is not stayed under
ORS 138.686 [automatic stay of death sentence] or otherwise by a court of
competent jurisdiction, the court that issued the initial death warrant, on motion of
the state and without further hearing, shall issue a new death warrant specifying a
new date on which the sentence is to be executed. The court shall specify a date for
execution of the sentence, taking into consideration the needs of the Department of
Corrections. The court shall specify a date not more than 20 days after the date on
which the state's motion was filed.
…

PENNSYLVANIA
Laws Regarding Initial Date Setting, Issuance of Execution Warrants, and the
Re-Setting of Execution Dates After Prior Dates Have Expired
61 PA. STAT. AND CONS. STAT. ANN. § 4302 (West 2020)
(a) Time.-(1) After the receipt of the record pursuant to 42 Pa.C.S. § 9711(i) (relating to
sentencing procedure for murder of the first degree), unless a pardon or
commutation has been issued, the Governor shall, within 90 days, issue a
warrant specifying a day for execution which shall be no later than 60 days
after the date the warrant is signed.
(2) If, because of a reprieve or a judicial stay of the execution, the date of
execution passes without imposition of the death penalty, unless a pardon or
commutation has been issued, the Governor shall, within 30 days after
receiving notice of the termination of the reprieve or the judicial stay, reissue
a warrant specifying a day for execution which shall be no later than 60 days
after the date of reissuance of the warrant.
…
(c) Failure to timely comply.--If the Governor fails to timely comply with the
provisions of this section and a pardon or commutation has not been issued, the
secretary shall, within 30 days following the Governor's failure to comply, schedule
and carry out the execution no later than 60 days from the date by which the
Governor was required to sign the warrant under subsection (a).

SOUTH CAROLINA
Laws Regarding Initial Date Setting
S.C. CODE ANN. § 17-25-370 (2020)
In all criminal cases in which the sentence of death is imposed and which are
appealed to the Supreme Court or in which notice of intention to appeal is given,
when the judgment below has been affirmed or the appeal dismissed or abandoned,
the clerk of the Supreme Court, when the remittitur is sent down or the appeal is
dismissed or abandoned, shall notify the Commissioner of the prison system or his
duly appointed officer in charge of the State Penitentiary of the final disposition of
such appeal and, on the fourth Friday after the receipt of such notice the sentence
appealed from shall be duly carried out as provided by law in such cases, unless
stayed by order of the Supreme Court or respite or commutation of the Governor.

SOUTH DAKOTA
Laws Regarding Initial Date Setting and Issuance of Execution Warrants
S.D. CODIFIED LAWS § 23A-27A-15 (2020)
Whenever judgment of death is rendered, the judge shall also sign and provide to the
Governor, the secretary of corrections, the sheriff of the county where the crime was
committed, and the warden a warrant of death sentence and execution, along with a
brief statement of the facts and circumstances of the case, duly attested by the clerk
under the seal of the court. The warrant of death sentence and execution shall
describe the conviction and sentence and appoint the week within which the sentence
shall be executed. The warrant of death sentence and execution shall be directed to
the warden of the state penitentiary at Sioux Falls, commanding the warden to
execute the sentence on some day within the week appointed.
Laws Regarding Issuance of Execution Warrants and the Re-Setting of Execution
Dates After Prior Dates Have Expired
S.D. CODIFIED LAWS § 23A-27A-31 (2020)
If the time period for the execution of any defendant in a capital case has passed by
reason of a stay of proceedings incident to appellate review or by reason of the

issuance of a writ of habeas corpus, certiorari, or other original remedial writ of the
Supreme Court, or for any other reason, the sentencing court shall issue a warrant of
death sentence and execution in accordance with § 23A-27A-15 appointing a new
week for the execution of the original sentence without requiring the defendant to
be brought before the sentencing court. Upon its issuance, the clerk of the court in
which the sentence was pronounced shall immediately send a certified copy of the
warrant of death sentence and execution to all attorneys of record, to the warden
having custody of the defendant, to the secretary of corrections, and to the Governor.
The warden shall execute the warrant of death sentence and execution accordingly.
This procedure applies to any case in which the time period for carrying out the
original warrant of death sentence and execution has elapsed without regard to
whether the original warrant was issued prior or subsequent to July 1, 1998.
S.D. CODIFIED LAWS § 23A-27A-29 (2020)
If the execution of a sentence is suspended pursuant to § 23A-27A-28 [execution
suspended if person is pregnant], as soon as the sentencing court is satisfied the
defendant is no longer pregnant, the sentencing court shall forthwith issue a warrant
of death sentence and execution appointing a week for her execution, pursuant to her
sentence. The week for the execution shall be within a period of not less than thirty
nor more than ninety days from the date of the warrant of death sentence and
execution. In no case may the appointed week of execution be sooner than the week
appointed by the sentencing court pursuant to § 23A-27A-15.
S.D. CODIFIED LAWS § 23A-27A-26 (2020)
If the sentencing court determines the defendant is mentally competent to be
executed, the sentencing court shall certify the fact to the Governor, the secretary of
corrections, and the warden having custody of the defendant. The sentencing court,
upon determination the defendant is mentally competent to be executed, shall issue
a warrant of death sentence and execution appointing a week beginning within a
period of not less than thirty nor more than ninety days from the date of the warrant,
for the execution of the defendant pursuant to the defendant's sentence unless the
sentence has been commuted or the defendant pardoned. In no case may the
appointed week of execution be sooner than the week appointed by the sentencing
court pursuant to § 23A-27A-15.

TENNESSEE
Laws Regarding Initial Date Setting
TENN. CODE ANN. § 40-23-119 (West 2020)
Upon the convict being brought before the court, it shall inquire into the
circumstances, and, if no legal reason exists against the execution of the sentence,
shall order the warden of the state penitentiary in which the death chamber is located
to execute the defendant on a day to be fixed by the court.
Laws Regarding the Re-Setting of Execution Dates After Prior Dates Have
Expired
TENN. CODE ANN. § 40-23-117 (West 2020)
When, from any cause, an inmate sentenced to death has not been executed pursuant
to the sentence, the sentence stands in full force, and shall be carried into execution
by the court in which the inmate was tried.

TEXAS
Laws Regarding Initial Date Setting and Issuance of Execution Warrants
TEX. CODE CRIM. PROC. ANN. art. 43.141 (West 2020)
(a) If an initial application under Article 11.071 is timely filed, the convicting court
may not set an execution date before:
(1) the court of criminal appeals denies relief; or
(2) if the case is filed and set for submission, the court of criminal appeals
issues a mandate.
(b) If an original application is not timely filed under Article 11.071 or good cause
is not shown for an untimely application under Article 11.071, the convicting court
may set an execution date.
…
(c) An execution date may not be earlier than the 91st day after the date the
convicting court enters the order setting the execution date.

…
(e) If the convicting court withdraws the order of the court setting the execution date,
the court shall recall the warrant of execution. If the court modifies the order of the
court setting the execution date, the court shall recall the previous warrant of
execution, and the clerk of the court shall issue a new warrant.
TEX. CODE CRIM. PROC. ANN. art. 43.15(a) (West 2020)
Whenever any person is sentenced to death, the clerk of the court in which the
sentence is pronounced shall, not later than the 10th day after the court enters its
order setting the date for execution, issue a warrant under the seal of the court for
the execution of the sentence of death, which shall recite the fact of conviction,
setting forth specifically the offense, the judgment of the court, and the time fixed
for the execution, and which shall be directed to the director of the correctional
institutions division of the Texas Department of Criminal Justice at Huntsville,
Texas, commanding the director to proceed, at the time and place named in the order
of execution, to carry the same into execution, as provided in Article 43.14
[regarding execution procedure], and shall deliver such warrant to the sheriff of the
county in which such judgment of conviction was had, to be delivered by the sheriff
to the director, together with the condemned person if the person has not previously
been so delivered.

UTAH
Laws Regarding Initial Date Setting and Issuance of Execution Warrants
UTAH CODE ANN. § 77-19-6 (West 2020)
(1)(a) When judgment of death is rendered, a warrant, signed by the judge and
attested by the clerk under the seal of the court, shall be drawn and delivered to the
sheriff of the county where the conviction is had.
(b) The sheriff shall deliver the warrant and a certified copy of the judgment
to the executive director of the Department of Corrections or the executive
director's designee at the time of delivering the defendant to the custody of the
Department of Corrections.
(2) The warrant shall state the conviction, the judgment, the method of execution,
and the appointed day the judgment is to be executed, which may not be fewer than

30 days nor more than 60 days from the date of issuance of the warrant, and may not
be a Sunday, Monday, or a legal holiday, as defined in Section 63G-1-301.
(3) The Department of Corrections shall determine the hour, within the appointed
day, at which the judgment is to be executed.
Laws Regarding Issuance of Execution Warrants and the Re-Setting of Execution
Dates After Prior Dates Have Expired
UTAH CODE ANN. § 77-19-9 (West 2020)
(1) If for any reason a judgment of death has not been executed and remains in force,
the court where the conviction was had, on application of the prosecuting attorney,
shall order the defendant to be brought before it or, if the defendant is at large, issue
a warrant for the defendant's apprehension.
(2) When the defendant is brought before the court, it shall inquire into the facts and,
if no legal reason exists against the execution of judgment, the court shall make an
order requiring the executive director of the Department of Corrections or the
executive director's designee to ensure that the judgment is executed on a specified
day, which may not be fewer than 30 nor more than 60 days after the court's order,
and may not be a Sunday, Monday, or a legal holiday, as defined in Section 63G-1301. The court shall also draw and have delivered another warrant under Section 7719-6.
(3) The Department of Corrections shall determine the hour, within the appointed
day, at which the judgment is to be executed.

VIRGINIA
Laws Regarding Initial Date Setting, Issuance of Execution Warrants, and the
Re-Setting of Execution Dates After Prior Dates Have Expired
VA. CODE ANN. § 53.1-232.1 (West 2020)
(A) Sentence of death shall not be executed sooner than thirty days after the sentence
is pronounced. The court shall, in imposing such sentence, fix a day when the
execution shall occur.

(B) Whenever the day fixed for the execution of a sentence of death shall have passed
without the execution of the sentence and it becomes necessary to fix a new date
therefor, the circuit court which pronounced the sentence shall fix another day for
the execution. The person to be executed need not be present but shall be represented
by an attorney when such other day is fixed. A copy of the order fixing the new date
of execution shall be promptly furnished by the clerk of the court making the order
to the Director. The Director shall cause a copy of the order to be delivered to the
person to be executed, and, if he is unable to read it, cause it to be explained to him
at least ten days before the date fixed for such execution, and make return thereof to
the clerk of the court which issued such order.
(C) When the day fixed for the execution of a sentence of death has passed without
the execution of the sentence by reason of a reprieve granted by the Governor, it
shall not be necessary for the court to resentence the prisoner. The sentence of death
shall be executed on the day to which the prisoner has been reprieved.
…

WYOMING
Laws Regarding Initial Date Setting and Issuance of Execution Warrants
WYO. STAT. ANN. § 7-13-905 (West 2020)
(a) A sentence of death shall be executed within the confines of a state penal
institution designated by the director of the department of corrections, before the
hour of sunrise on the day specified in the warrant which shall not be less than thirty
(30) days after the date of the judgment.
…
WYO. STAT. ANN. § 7-13-906 (West 2020)
Whenever a person is sentenced to death, the judge passing sentence shall issue a
warrant, signed by the judge and attested by the clerk under the seal of the court,
reciting the conviction and sentence and fixing a date of execution. The warrant shall
be directed to the director of the department of corrections and shall be delivered by
the sheriff at the time the prisoner is delivered to the state penal institution designated
by the director.

Laws Regarding Issuance of Execution Warrants and the Re-Setting of Execution
Dates After Prior Dates Have Expired
WYO. STAT. ANN. § 7-13-909 (West 2020)
If for any reason a sentence of death has not been executed and remains in force, the
court in which sentence was pronounced, on application of the district attorney,
shall, if no legal reason exists for not proceeding with the execution of the sentence,
enter an order setting a new date for the execution of the sentence, which shall not
be less than thirty (30) days from the date of the order. The court may order the
prisoner to be brought before it or, if the prisoner is at large, issue a warrant for the
prisoner's arrest. The court shall also issue a new warrant directed to the director of
the department of corrections to carry out the execution of the sentence as provided
by W.S. 7-13-906.
WYO. STAT. ANN. § 7-13-913 (West 2020)
…
(b) If the court determines [a] female is pregnant, the court shall order the execution
of the sentence suspended until it is determined that the female is no longer pregnant
at which time the court shall issue a warrant appointing a new date for the execution
of the sentence.
WYO. STAT. ANN. § 7-13-910 (West 2020)
(a) If execution of sentence is suspended until a specified day or if a temporary
reprieve is granted until a specified day, the fact of the suspension or reprieve shall
be noted on the warrant. On the arrival of the specified day the director of the
department of corrections shall proceed with the execution without the necessity for
the issuance of a new warrant.
…
WYO. STAT. ANN. § 7-13-902 (West 2020)
…
(k) If the court finds that the convict has the requisite mental capacity, the court shall
issue an order detailing its findings and conclusions and appointing a time for the
convict's execution.

WYO. STAT. ANN. § 7-13-903 (West 2020)
(a) If the court finds that the convict does not have the requisite mental capacity, the
judge shall suspend the execution of the convict. Thereafter a designated examiner
shall reexamine the convict at least every twelve (12) months at the direction of the
court. After two (2) annual examinations the court may suspend reexamination of
the convict.
(b) When the designated examiner determines after examination required by this
section that the conditions justifying the suspension of the execution of the death
sentence no longer exist, he shall immediately report his determination to the court.
The court shall commence a new hearing according to W.S. 7-13-902.

